U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                       Review of the Critical Incident
                        Response Plans of the United
                          States Attorneys’ Offices

                                      Report Number
                                        I-2004-001




                                       December 2003
                                      EXECUTIVE SUMMARY



       The Department of Justice (Department) has long recognized the need to
respond quickly and appropriately to critical incidents, from natural disasters
to terrorist attacks. Since 1988, the Department has implemented at least 11
initiatives aimed specifically at improving its capability in this important area.
After-action reports on critical incidents in the 1990s (for example, Ruby Ridge
and the Branch Davidian standoff in Waco, Texas) documented problems with
the Federal Bureau of Investigation (FBI), other federal investigative agencies in
the Department’s responses, and United States Attorneys’ Offices (USAOs)
responses to critical incidents.

       In 1996, the Attorney General addressed the USAOs’ preparedness to
respond to critical incidents by directing that the Department implement the
Crisis Management Coordinator Program (CMC Program). To implement the
CMC Program, each USAO was directed to designate a Crisis Management
Coordinator (CMC), who was to develop a critical incident response plan (Plan)
and make other preparations to ensure that the USAO was ready to respond to
a critical incident. The Criminal Division’s Counterterrorism Section (CTS)1
and the Executive Office for United States Attorneys (EOUSA) were assigned to
administer and support the CMC Program, and to train the coordinators
designated by the United States Attorneys.

       After September 11, 2001, the Attorney General undertook an extensive
reorganization of the Department to address the continuing threat of attacks by
terrorist organizations, and created the USAOs’ Anti-Terrorism Task Forces
(ATTFs).2 The Department’s Anti-Terrorism Plan clearly gave priority to the
prevention of future terrorist attacks through expanded intelligence gathering
and information sharing. However, the need to respond quickly and effectively
to critical incidents continued to be highlighted by both the National Strategy
for Homeland Security and the Department’s Anti-Terrorism Plan.3 For
USAOs, that response continues to depend, in large part, on the preparations
and Plans developed under the CMC Program.

     We conducted this review to determine whether the USAOs have acted to
improve their ability to respond quickly and appropriately to critical incidents

        1   Prior to December 1, 2002, CTS was part of the Terrorism and Violent Crime Section.
        2   The ATTFs are now called Anti-Terrorism Advisory Councils (ATACs).
        3 Memorandum from the Attorney General to the U.S. Attorneys, “Anti-Terrorism Plan,”
September 17, 2001; National Strategy for Homeland Security, Office of Homeland Security,
July 16, 2002.
U.S. Department of Justice                                                                        i
Office of the Inspector General
Evaluation and Inspections Division
by developing comprehensive critical incident response plans, training staff to
carry out the Plans, and exercising the Plans.4

Results in Brief

       The primary finding of this review is that most USAOs have not
effectively implemented the required CMC Program. In particular, the Plans
developed by the USAOs are inadequate in scope and content to ensure a quick
and appropriate response to a terrorist attack or other critical incident. In
1999, CTS identified for the USAOs 48 fundamental actions that should be
taken when responding to a critical incident. The actions are organized into 10
separate categories that cover areas such as coordinating and conducting
interviews, managing the overall crime scene, and deploying USAO resources to
FBI’s command post. For example, among the 48 actions are steps to ensure
that responders:

        •    coordinate interviews to avoid multiple agency interviews of the same
             person,

        •    establish a unified evidence room and communicate chain of custody
             procedures,

        •    establish a crime scene protocol,

        •    preserve the crime scene, and

        •    set up overlapping relief shifts to avoid fatigue.

       Some of the 48 actions were included to avoid missteps identified in
after-action reports on earlier critical incidents. For example, the need to
establish a crime scene protocol and better preserve the crime scene were
identified in the after-action report on the Oklahoma City bombing. The need
to plan for overlapping relief shifts to avoid fatigue and the potential for poor
decision-making that may result from fatigue was recommended in the Ruby
Ridge after-action report. With the advent of the ATTF initiative in October
2001, the Department increased the level of communication and interaction
between USAOs, FBI, and state and local officials, thus enhancing overall
response capabilities. Nonetheless, developing Plans that address all 48
actions remained essential to ensure a comprehensive response to a critical
incident.



        4The performance of the USAOs’ ATTF/ATACs is the subject of a separate Office of
Inspector General review.
U.S. Department of Justice                                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
       However, the Plans developed by the USAOs failed overwhelmingly to
include guidance to ensure that all 48 specific actions are accomplished. Only
12 of the 76 Plans we found on file at CTS and EOUSA addressed at least half
of the 48 actions. Just 4 of the 76 Plans addressed them all. Eleven USAOs
simply inserted their name into a five-page “model” plan issued by EOUSA as a
format guide. Three of the Plans addressed none of the 48 actions because the
USAOs had submitted documents other than critical incident response plans to
meet their CMC Program requirements (for example, one USAO submitted the
emergency evacuation plan for its building).

       Moreover, we found that USAOs generally do not follow the standard
crisis preparedness practice of conducting regular critical incident response
exercises. While 20 of the 94 USAOs participated in at least one of 23 exercises
sponsored by the FBI’s Crisis Management Unit that were appropriate for
USAO participation, and other USAOs participated in exercises sponsored by
other federal, state, and local preparedness agencies, exercise participation was
the exception rather than the rule. Conducting regular exercises, both within a
USAO and with other agencies, to practice crisis response procedures is
important to ensure a coordinated and competent response to an actual critical
incident. However, in responding to a survey that we conducted during this
review, over 60 percent of the 81 CMCs who replied indicated that their USAOs
had conducted no exercises since 1996, and an additional 20 percent
responded that they had conducted just one exercise during that time. Only
17 percent indicated that their offices had conducted more than one exercise
since 1996.

      The USAOs’ failure to effectively implement the CMC Program was not
corrected because CTS and EOUSA did not administer and support the
Program. The CMCs received only limited training, consisting primarily of two
national conferences held in 1997 and 1999. CTS provided no further training
from 1999 until March 2003, when it sponsored a 2-hour videoconference.
CTS and EOUSA also provided only minimal guidance to the CMCs, and did
not keep the guidance up to date as changes in departmental and national
policy occurred. CTS and EOUSA further failed to track the receipt of the Plans
and to properly maintain them on file.

       CTS has maintained a significant training effort in support of the ATTFs,
but we found that training provided for ATTFs generally focused on preventing
terrorist attacks, rather than on how to respond to attacks that occur. Our
interviews with CMCs, including 10 who were also ATTF Coordinators,
confirmed that the training provided to date, including the ATTF training, did
not meet most of the specific needs of the CMCs.

      When we questioned the lack of CMC-specific training over the previous
four years, CTS told us that national CMC training had been planned for Fall
U.S. Department of Justice                                                     iii
Office of the Inspector General
Evaluation and Inspections Division
2001 or Spring 2002. This training was initially deferred after the events of
September 11, 2001, to accommodate other training requirements mandated
by the Attorney General. The training was then deferred further because many
of those who would have been the trainers or trainees were involved in the
nationwide investigation of the terrorist attacks. CTS told us that additional
preparedness and response training for CMCs is now scheduled for March
2004.

       Although most USAOs submitted their Plans to CTS and EOUSA as
required, CTS’s review was not thorough.5 Beginning in early to mid-2000,
four CTS attorneys reviewed the Plans on file in order to draft a model plan.
Each of the attorneys reviewed approximately 10 plans in conjunction with
their work on drafting the model plan. Approximately 5 to 10 plans were
identified as having “best practices” or provisions worthy of inclusion in a
revised model plan that would address content, not just format. However, CTS
never provided feedback to each USAO on its individual plan and, as a result,
USAOs continued to rely on Plans that substantially failed to address the
fundamental actions for responding effectively to a critical incident. A revised
model plan was issued in May 2003 and in August 2003 USAOs reported that
they were in the process of revising their Plans.

       We also found that the description of CMC Program implementation
included in the Department’s Annual Performance Reports was overstated. In
its FY 2000 Performance Plan, as a part of the strategic objective to “Improve
Response Capabilities to Terrorists’ Acts,” the Department set a goal of having
Plans in place at 90 of the 94 USAOs by the end of FY 2002.6 In FY 2001,
based on an e-mail survey conducted by EOUSA, the Department reported that
88 USAOs had completed their Plans. In addition, several Performance Reports
also contained a narrative detailing the performance of the program.7 The
narrative provided specific information indicating that: 1) all 88 Plans had been
submitted by the USAOs and evaluated by CTS; 2) the Plans met the criteria
for a complete Plan and provided a framework for responding to terrorist
attacks and other critical incidents, including a crosswalk to FBI and other

        5 After the completion of our fieldwork, CTS provided the inspection team with the
name of a former staff attorney who said he reviewed all of the Plans that were submitted as of
the end of September 1999. When interviewed, he told us that he did not recall the exact
number of Plans reviewed nor did he write up individual Plan reviews, but his overall
assessment was that the Plans were not detailed and were generally of poor quality. He also
told us that he informed the Deputy Chief, CTS, of his findings, but CTS took no action.
        6 Department of Justice, FY 2000 Performance Report & FY 2001 Performance Plan,

April 2001, page 29.
        7Department of Justice, FY 2001 Summary Performance Report, February 2000;
Department of Justice, Department of Justice, FY 2000 Performance Report & FY 2001
Performance Plan, April 2001; Department of Justice, FY 2002 Performance Report/FY 2003
Revised Final, /FY 2004 Performance Plan, February 2003.
U.S. Department of Justice                                                                    iv
Office of the Inspector General
Evaluation and Inspections Division
response plans; and 3) the Department was providing continuing support to
the CMC Program.

       Our review found that information to be inaccurate. Not all of the Plans
were actually submitted; the vast majority of Plans were not comprehensive in
their guidance, did not provide a framework for the USAOs’ response and did
not contain a crosswalk to the FBI’s or other response plans; and CTS and
EOUSA had not adequately supported the CMC Program. Moreover, our
discussions with CTS officials found that their own reviews had identified the
shortcoming of the Plans. Nonetheless, in FY 2001 the Department declared
the performance measure “met,” and eliminated the performance measure from
future Annual Performance Reports.8

      While the first priority of the Department is the prevention of terrorism, a
commensurate need exists to respond effectively to critical incidents that are
not prevented. As stated in the Department’s FY 2003 and FY 2004
Performance Plans, “to effectively address international and domestic terrorism,
[the Department] must concentrate on both prevention and response.”9
Despite the enormous efforts undertaken by federal, state, and local law
enforcement agencies – including the work of the ATTFs to disrupt terrorist
organizations and prevent terrorist attacks - Attorney General John Ashcroft
recently reiterated that the United States continues to face a “very real
potential” of another terrorist attack.10 The failure of the USAOs, CTS, and
EOUSA to fully implement the CMC Program leaves the Department less
prepared than it could be – and should be – to respond to critical incidents.

       In March 2003, CTS recommended that the CMC Program be
incorporated into the ATTF/ATAC initiative. The recommendation was
approved October 17, 2003. Although placed under the ATACs, the CMCs “will
remain responsible for the creation, implementation, maintenance and exercise
of their district’s crisis response plan….”11 However, the ATACs are only
responsible for responding in the event of terrorist attacks, not other critical
incidents. It is not clear whether the ATACs’ responsibilities will be expanded
to include non-terrorist critical incidents, or whether the CMCs are still

        8Department of Justice, FY 2001 Summary Performance Report, page 223, Appendix A
– Discontinued Measures Performance Report.
        Department of Justice, FY 2002 Performance Report/FY 2003 Revised Final
        9

Performance Plan/FY 2004 Performance Plan, page 1.
        10   Attorney General John Ashcroft, Fox News Sunday, August 3, 2003.
        11Memorandum from Guy Lewis, Director, EOUSA, to All United States Attorneys,
“Merger and Realignment of Crisis Management Coordinators Program Under Anti-Terrorism
Advisory Council,” October17, 2003.

U.S. Department of Justice                                                               v
Office of the Inspector General
Evaluation and Inspections Division
responsible for responding to non-terrorist critical incidents separately.
Therefore, it is unclear how the realignment of the CMCs may affect the USAOs’
ability to respond to critical incidents, especially those that are not terrorist-
related. As this review showed, the need to prepare for all critical incidents has
not been met. Therefore, we provide ten recommendations to improve the
preparedness of the USAOs to respond to critical incidents.

We recommend that the Deputy Attorney General:

        1. Ensure that performance measures are developed to assess the
           readiness of USAOs to respond to critical incidents.

We recommend that all United States Attorneys:

        2. Revise the critical incident response plans to address the action items
           identified by CTS, and regularly update the plans to reflect changes in
           law, departmental policy, or local procedures.

        3. Conduct and participate in periodic exercises to test the critical
           incident response plans and practice responding to critical incidents.

        4. Establish workload-reporting procedures that capture the time
           dedicated to critical incident response planning duties.

We recommend that the Assistant Attorney General, Criminal Division:

        5. Provide updated training and guidance to USAOs on how to prepare
           effective and comprehensive critical incident response plans. The
           guidance should reflect changes in legislation, policy, and critical
           incident response practice that have taken place since September 11,
           2001.

        6. Review all USAOs’ Plans, including revisions, to ensure that the Plans
           cover all critical areas; provide individualized feedback to USAOs; and
           periodically report to the Deputy Attorney General on the status of the
           USAOs’ Plans.

        7. Provide USAOs with training and guidance on how to develop and
           conduct appropriate critical incident response exercises, either
           independently or in conjunction with the FBI or other offices.

        8. In conjunction with EOUSA, complete the development of a website
           containing information on critical incident response, including lessons
           learned, exercise scenarios, and best practices.

U.S. Department of Justice                                                      vi
Office of the Inspector General
Evaluation and Inspections Division
We recommend that the Director, EOUSA:

      9.     Establish a system for accurately tracking and reporting the status of
             USAO submissions and updates to critical incident response plans.

      10. With advice from CTS, revise the operations review process to include
          a full evaluation of the preparedness of USAOs to respond to critical
          incidents.




U.S. Department of Justice                                                       vii
Office of the Inspector General
Evaluation and Inspections Division
                                        TABLE OF CONTENTS

        INTRODUCTION ............................................................................. 1
        SCOPE AND METHODOLOGY.......................................................... 8
        RESULTS OF THE REVIEW ............................................................ 13
        Most USAOs Have Not Prepared and Exercised Comprehensive
        Plans to Guide Their Response to Critical Incidents .................... 13

                 Most USAOs failed to prepare comprehensive critical incident
                 response plans ....................................................................... 13

                 Most USAOs have never conducted critical incident
                 response exercises................................................................... 15

        CTS and EOUSA Failed to Fulfill Their Administrative and
        Support Responsibilities for the CMC Program ............................. 18

                 CTS and EOUSA did not provide effective training .................. 18

                 CTS and EOUSA provided minimal guidance to the CMC
                 Program ................................................................................. 22

                 CTS and EOUSA failed to accurately track and maintain
                 the Plans submitted by USAOs, resulting in lost Plans ............ 25

                 CTS did not timely review submitted Plans or provide
                 feedback to USAOs ................................................................. 26

                 EOUSA neglected to examine CMC Program
                 implementation during evaluations of USAO operations ......... 27

        The Department Overstated CMC Program Implementation in
        Its Annual Performance Reports .................................................... 29

        CONCLUSION AND RECOMMENDATIONS ...................................... 32

        APPENDIX A - CRITICAL INCIDENT RESPONSE PLAN CONTENT
                     ANALYSIS................................................................. 35

        APPENDIX B - CONTENT OF CMC TRAINING CONFERENCES ...... 38

        APPENDIX C - CMC SURVEY INSTRUMENT ................................... 41


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX D – CRITICAL INCIDENT CHRONOLOGY: 1988-2003 .. 42

        APPENDIX E – CRIMINAL DIVISION AND EXECUTIVE
        OFFICE FOR UNITED STATES ATTORNEYS’ RESPONSE .............. 45

        APPENDIX F – OFFICE OF THE INSPECTOR GENERAL’S
        ANALYSIS OF THE CRIMINAL DIVISION AND EXECUTIVE
        OFFICE FOR UNITED STATES ATTORNEYS’ RESPONSE .............. 52




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      INTRODUCTION



       After several highly publicized failures to respond effectively to critical
incidents, in 1996 the Attorney General directed the Department of Justice
(Department) to implement a Crisis Management Coordinator Program (CMC
Program). The CMC Program required United States Attorneys’ Offices (USAOs)
to improve their preparedness to respond “quickly and appropriately” to critical
incidents by developing critical incident response plans. The Attorney General
directed the USAOs to implement the CMC Program, and the Criminal
Division’s Counterterrorism Section (CTS) and the Executive Office for United
States Attorneys (EOUSA) to administer and support the Program. We
conducted this review to determine whether the USAOs have acted to improve
their ability to respond quickly and appropriately to critical incidents by
developing comprehensive critical incident response plans, training staff to
carry out the Plans, and exercising the Plans.

Background
                                                              Critical Incidents

       Responding quickly and               Critical incidents include acts of terrorism,
                                            group defiance of governmental authority,
appropriately when critical incidents       hostage situations, and natural disasters.
occur is an essential part of the           Typically, these events involve one or more of
Department’s mission, as well as an         the following factors (although the presence of
integral part of the Department’s           one factor by itself does not automatically
strategy for protecting the nation          mean that incident is critical):
from terrorism. Problems                    •   Involves threats or acts of violence against
encountered during prior critical               government or social institutions.
incidents – such as the Branch              •   Involves significant loss of life, significant
Davidian standoff in Waco, Texas,               injuries, or significant damage to property.
the Oklahoma City bombing, and              •   Demands use of substantial resources.
natural disasters like Hurricane
                                            •   Attracts close public scrutiny through the
Andrew – resulted in significant
                                                media.
congressional and public scrutiny of
the Department’s actions. After-            •   Requires coordination among federal law
                                                enforcement agencies (more so than usual),
action reports on these and other
                                                state or local law enforcement agencies,
critical incidents identified serious           local or state prosecutors, emergency relief
mistakes by the Department in areas             services, and/or emergency response
such as communication and                       services.
coordination between negotiating            •   Requires ongoing communication with
and tactical elements, personnel                upper level personnel at the Department of
availability, crime scene                       Justice.
management and evidence collection,
and use of deadly force.                   Source: OIG review of USAOs’ critical incident response
                                           plans.

U.S. Department of Justice
Office of the Inspector General                                                                1
Evaluation and Inspections Division
                        Selected Critical Incidents and Federal Actions, 1988 – 2003
            INCIDENTS                      DATE                                    FEDERAL ACTIONS
                                       Dec 1988            - DOJ Crisis Management Plan
                                       Oct 1989            - DOJ National Security Emergency Preparedness Program
  Ruby Ridge -                         Aug 1992
  Hurricane Andrew -                   Aug 1992
  World Trade Center Bombing -         Feb 1993
  Branch Davidian Stand-Off -          Feb–Apr 1993
                                       Apr 1994            - FBI Critical Incident Response Group (CIRG)
  Oklahoma City Bombing -              April 1995
                                       Jun 1995            - PDD 39, “U.S. Policy on Counterterrorism”
                                       Jan 1996            - Attorney Critical Incident Response Group
  Freemen Standoff -                   Mar–Jun 1996
                                       May 1996            - USAO Crisis Management Coordinator Program
                                       May 1998            - PDD-62, “Protection Against - Unconventional Threats to the
                                                               Homeland and Americans Overseas”
  Terrorists attack World Trade        Sep 2001
  Center and Pentagon -
                                       Sep 2001            - DOJ Anti-Terrorism Plan
                                       Oct 2001            - Deputy AG issues “Guidance for Anti-Terrorism Task Forces”
                                       Oct 2001            - USA PATRIOT ACT passed by Congress
  Anthrax attacks: New York,           Oct 2001
  Washington DC, and Florida -
                                       Oct 2001            - Interagency Domestic Terrorism Concept of Operations Plan
                                       Nov 2001            - Anti-Terrorism Task Forces established in USAOs
                                       Nov 2001            - Blueprint for Change, A Plan to Reshape the Department and Its
                                                               Components to Focus on Anti-Terrorism
                                       Jul 2002            - National Strategy for Homeland Security
                                       Nov 2002            - Reorganization of the Criminal Division
                                       Feb 2003            - Homeland Security Presidential Directive

Source: OIG review of departmental and other documents.
See Appendix D for a more detailed chronology of critical incident events.

        Since 1988, at least 16 initiatives – 11 departmental and 5 other federal
 or legislative – have focused on correcting past deficiencies and improving the
 ability of the Department (and other federal agencies) to respond to critical
 incidents (the Table above). Between 1988 and 1996, these initiatives
 established requirements for periodic exercises of emergency operating plans,
 and assigned EOUSA responsibility for overseeing the emergency preparedness
 of the USAOs, including developing critical incident response training.12 In
 May 1996, the Attorney General directed that each United States Attorney
 establish a CMC Program, and prepare Plans as an integral part of the overall
 preparedness effort of each office.13
        12 DOJ Order 1900.6A, Department of Justice Crisis Management Plan, 1988; DOJ

 Order 1900.5A, National Security Emergency Preparedness Program, 1989; Memorandum from
 Merrick Garland, Principal Associate Attorney General, et al., to the Attorney General,
 “Attorney Critical Incident Response Group,” January 11, 1996.
          13Critical Incident Response Plan, Decision Memorandum from Merrick Garland,
 Principal Associate Attorney General to the Attorney General, May 23, 1996, and approved on
 May 24, 1996.

 U.S. Department of Justice
 Office of the Inspector General                                                                                  2
 Evaluation and Inspections Division
       Recent initiatives reinforce that being prepared to respond to critical
incidents is still one of the primary objectives of the Department. For example,
the Department’s Anti-Terrorism Plan (2001) and the National Strategy for
Homeland Security (2002) were implemented to update the strategic objectives
for the Department in the aftermath of the September 2001 terrorist attacks.
Each of those initiatives identifies three major strategic objectives for the
Department, one of which is to respond effectively to critical incidents.
Specifically, the initiatives direct the Department to ensure national security
by:

        •    serving as an organizational structure for a coordinated response to
             acts of terrorism (Department’s Anti-Terrorism Plan), and

        •    minimizing the damage and leading the recovery from attacks that do
             occur (National Strategy for Homeland Security).

      CMC Program. The CMC Program is designed to improve the ability of
the USAOs to accomplish their statutory responsibilities while responding
quickly and appropriately to critical incidents.14 Specifically, implementing
better planning and preparation for responding to critical incidents was
intended to improve USAOs’ performance in legal and procedural crisis
response; enhance USAOs’ coordination with law enforcement and emergency
response agencies; ensure the identification and organization of resources
needed to respond to a critical incident (e.g., personnel, equipment,
information); and improve the USAOs’ anticipation of likely crisis situations.15

       Each USAO was to improve its performance in a critical incident by
developing plans to clarify department-wide notification procedures, district
office resources, headquarters’ response, and the command and control
process during a critical incident. In addition, the Attorney General directed
that CTS and EOUSA administer and provide support to the CMC Program.16
The specific duties assigned to the USAOs, CTS, and EOUSA are described in
the following sections. Figure 1 shows the components involved in the CMC
Program.



        14Each of the 93 United States Attorneys is the chief federal law enforcement officer
within his or her jurisdiction, and serves as the principal litigator under the direction of the
Attorney General.
         Attorney General’s speech to CMCs at the first national training conference, June 17,
        15

1997, page 7.
        16Effective December 1, 2002, the Terrorism and Violent Crime Section was
reorganized into the Counterterrorism Section (CTS) and the Domestic Security Section (DSS).

U.S. Department of Justice
Office of the Inspector General                                                               3
Evaluation and Inspections Division
                              Figure 1 - Components Involved in the CMC Program


                                                 Attorney General


                                              Deputy Attorney General


             Executive Office for              United States Attorneys             Criminal Division
            United States Attorneys        Crisis Management Coodinators


             Office of Legal Education                                            Counterterrorism
             Evaluation and Review Staff                                          Section
             Security Program Staff


Source: Organization Charts for the Department of Justice, EOUSA, and Criminal Division, July 2003.


      United States Attorney and Crisis Management Coordinator
responsibilities. In the event of a critical incident, the United States Attorney is
the on-scene legal decision maker responsible for managing the Department’s
response by, among other things:

        •    facilitating coordination and communication with federal, state, and
             local officials and prosecutors,

        •    preparing and securing search warrants,

        •    assisting law enforcement personnel in interviewing witnesses,

        •    making legal decisions, such as granting immunity,

        •    appearing before grand juries, and, when necessary,

        •    advising law enforcement personnel on collecting and preserving
             evidence.

       To coordinate and plan each USAO’s response to a critical incident, the
Attorney General directed each United States Attorney to select a senior
Assistant United States Attorney (AUSA) to be the Crisis Management
Coordinator (CMC) and directed that at least one AUSA at each USAO receive
crisis response training. The CMCs for each USAO were directed to submit to
EOUSA a Plan describing how the USAO would manage responsibilities during
a critical incident. The CMCs were directed to coordinate the development and
implementation of their Plans with appropriate federal, state, and local law
enforcement and emergency response agencies, and participate in crisis
response exercises with law enforcement and emergency response agencies.

U.S. Department of Justice
Office of the Inspector General                                                                        4
Evaluation and Inspections Division
These Plans serve as the foundation upon which USAOs will base their
response to a critical incident. It was the CMCs’ responsibility to identify the
resources required for their USAOs to respond quickly and appropriately to a
critical incident.

       While developing a Plan does not guarantee a flawless response to a
critical incident, being prepared makes it more likely that a successful
response will be achieved. As former Attorney General Janet Reno stated in a
June 17, 1997, speech delivered to CMCs at the first CMC Training Conference
held in Arlington, Virginia:

        By being thoroughly prepared to deal with all aspects of a crisis,
        which can reasonably be anticipated, investigators and
        prosecutors free themselves to concentrate on those unique
        aspects of the crisis, which could not have been anticipated….
        Advance preparation needs to be focused through the
        development of a written crisis response plan in each U.S.
        Attorney’s Office.

      CTS and EOUSA’s responsibilities. To implement the CMC Program,
Attorney General Reno assigned CTS to review the Plans submitted by the
USAOs for content and quality and provide feedback to each district; EOUSA
was assigned to monitor timely Plan submission and Plan updates. To support
the CMC Program, the Attorney General directed CTS, in conjunction with
EOUSA, to develop and ensure training for the CMCs. The Attorney General
stressed “training and advanced planning are imperative” given the intense
time constraints and public attention during a critical incident. Specifically,
CTS was to provide CMCs training in:

        •    coordination with law enforcement and emergency response agencies,

        •    legal and procedural crisis response, and

        •    specific planning to identify and organize resources, as well as
             anticipate likely crisis situations.

     The direction for CTS and EOUSA to develop training was reiterated on
October 21, 1999,17 and in the Department’s FY 2002 Performance Report:

        In the area of preparation for and response to acts of terrorism,
        the Terrorism and Violent Crime Section [now CTS] is
        responsible for administering the Department’s Attorney Critical

        17Memorandum for the Attorney General from the Deputy Attorney General, “U.S.
Attorney’s Offices’ Preparedness to Address Critical Incidents,” October 21, 1999, page 4.

U.S. Department of Justice
Office of the Inspector General                                                              5
Evaluation and Inspections Division
        Incident Response Group and its Crisis Management
        Coordinators program, which involves the development of a
        crisis response plan for each federal judicial district and the
        training of specially selected federal prosecutors from the U.S.
        Attorneys’ offices and the DOJ litigating divisions in crisis
        preparation and response techniques.18

      CMC Training Conferences. Since the inception of this CMC Program in
1996, CTS and EOUSA, through the Office of Legal Education, have held two
CMC Training Conferences. The first conference took place in Arlington,
Virginia, from June 17 through 20, 1997. At the Conference, the CMCs
received information on the availability of cross-training crisis response
exercises with the FBI and how to develop a Plan. The second conference took
place in Columbia, South Carolina, from October 19 through 22, 1999. CMCs
received contact information and general information on exercising Plans and
preparing a portable “office in a box” (containing, for example, frequently used
legal forms on a CD-ROM, cell phones for communications capabilities).19

      Subsequent to the initiation of the OIG review, CTS held a two-hour Crisis
Management Coordinators Videoconference through the Justice Television
Network on March 26, 2003. The videoconference consisted of a briefing by a
CTS Deputy Director and a senior litigation specialist. They discussed with the
CMCs the existing documentation and information available on USABook
Online, an internal Department of Justice website for USAOs. They also
suggested that CMCs review their Plans and integrate them with the District
Office Security Plan and the Anti-Terrorism Task Force (ATTF) Plan.

      During this review, CTS told us that national CMC training had been
planned for Fall 2001 or Spring 2002. This training was initially deferred after
the events of September 11, 2001 to accommodate other training requirements
mandated by the Attorney General and then deferred further because many of
those who would have been the trainers or trainees were involved in the
nationwide investigation of the terrorist attacks. CTS told us that additional
preparedness and response training for CMCs is scheduled for March 2004.

      CMC Manual. At the 1999 training conference, CTS gave the CMCs a
“Crisis Management Coordinator’s Manual” in both hardcopy and on CD-ROM.
The CMC Manual provides legal and practical guidance on how to respond to
critical incidents. Developed by CTS, the CMC Manual provides over 100 pages

        18 Department of Justice, FY 2002 Performance Report/FY 2003 Revised Final
Performance Plan/FY 2004 Performance Plan, Strategic Objective & Annual Goal 1.2 –1.3:
Investigate and Prosecute Terrorist Acts, page 3.
        19   See Appendix B for a more detailed description of training content.

U.S. Department of Justice
Office of the Inspector General                                                          6
Evaluation and Inspections Division
of detailed critical incident response information specific to the CMC Program.
The second chapter of the CMC Manual contains a list of CTS-recommended
action items that USAOs should take within the first 48 hours of a critical
incident. The CMCs also received an electronic copy of the Attorney Critical
Incident Response Group Form Book, which contains typical forms that may be
needed when responding to a critical incident.




U.S. Department of Justice
Office of the Inspector General                                            7
Evaluation and Inspections Division
                                SCOPE AND METHODOLOGY


Review of Critical Incident Response Plans

       We began this review in December 2002 and completed our work in
October 2003. We reviewed the 76 Plans available at EOUSA’s and CTS’s
offices to determine whether USAOs submitted Plans as required, the
timeliness of the Plan submissions, and the overall quality and content of the
Plans. We assessed the quality and content of the Plans using the “Crisis
Incident Checklist For Initial 48 Hours” (48-Hour Checklist) contained in
Chapter Two of the CMC Manual. The 48-Hour Checklist contained 10
categories of specific action items compiled by CTS to guide USAOs in
developing their Plans for responding to a critical incident. The action items
cover every aspect of USAO critical incident response, from notifying the
Attorney General or Deputy Attorney General that an incident has occurred to
coordinating with state and local emergency response agencies. We identified
48 specific actions contained in the checklist.20

      Before we used the 48 specific actions as the basis for evaluating the
Plans on file, we examined whether those recommended actions remained valid
responses and whether the list as a whole represented a reasonably complete
approach to responding to a critical incident. Based on our examination,
which consisted of the three steps described below, we verified that the
approach to incident response delineated by the 48-Hour Checklist was
reasonably complete and valid criteria for evaluating the USAOs’ critical
incident response plans.

      We began our examination of the 48-Hour Checklist by confirming that it
was the guidance given to the CMCs on what to include in a critical incident
response plan. We confirmed that:

        •    CTS identified the 48 action items as important tasks to be
             accomplished in a crisis situation,

        •    the CMCs were informed of the 48 action items at the 1999 CMC
             training conference, as part of the CMC Manual they were given to
             guide the implementation of the Program within their district, and

        •    the 1999 CMC Manual, particularly Chapter 2, was the latest, most
             detailed, and most comprehensive information provided to CMCs on
             how to develop Plans.

        20   See Appendix A for a list of the 48 action items.

U.S. Department of Justice
Office of the Inspector General                                                   8
Evaluation and Inspections Division
      Subsequent to our fieldwork for this review, in May 2003, CTS issued a
revised “Guide to Developing a Crisis Response Plan” that included the same
48-Hour Checklist, further confirming that the 48 actions remain the current
guidance on the fundamental steps to take in responding to a critical incident.

      To assess the completeness of the range of actions included on the 48-
Hour Checklist, we compared the 48 action items to deficiencies noted in past
FBI after-action reports from critical incidents, including:

        •    Ruby Ridge (1992),

        •    Branch Davidian Stand-off (1993),

        •    World Trade Center Bombing (1993),

        •    Murrah Federal Building, Oklahoma City (1995), and

        •    Freemen Stand-off (1996).

        Our assessment showed that the 48-Hour Checklist includes steps to
address the recommendations in the above reports. For example, one of the
major findings in the after-action report on Ruby Ridge was that on-scene
personnel made mistakes in judgment as a direct result of fatigue because
there was no plan to provide relief personnel and adequate rest periods for
those conducting the operation. The 48-Hour Checklist clearly states that
USAOs should “Plan relief shift[s] of AUSAs with preset period[s] of overlap to
facilitate continuity.”

      The after-action reports on the bombings of the World Trade Center in
1993, and the Oklahoma City Murrah Federal Building in 1995, found
problems with evidence collection and preservation. The Checklist addresses
those areas by stating that Plans should include how USAOs will:

        •    preserve the crime scene consistent with life-saving requirements,

        •    ensure that there is a single, coordinated crime scene protocol and
             that no crime scene search is undertaken independent of that
             protocol,

        •    implement a crime scene protocol, which includes guidance to ensure
             the orderly presentation of evidence at trial through a limited number
             of witnesses (e.g., search team leaders), and




U.S. Department of Justice
Office of the Inspector General                                                   9
Evaluation and Inspections Division
        •    establish a single, unified evidence room with clear understanding of
             management and chain of custody procedures.21

      Finally, during our interviews with 26 CMCs and the Deputy Chief, CTS,
we asked their opinions as to whether the 48 actions remained the appropriate
actions to take in response to a critical incident and whether the range of
actions was reasonably complete. The CMCs we interviewed confirmed that the
48 actions remained valid and reasonably complete, although they indicated
that the list could be expanded to reflect changes that have occurred since
September 11, 2001.

USAO Critical Incident Response Survey

      Because the scope of our review encompassed the implementation of the
CMC Program at all 94 USAOs, we conducted a survey of all offices to
determine the following:

        •    which USAOs filed their Plan with EOUSA or CTS,

        •    how many times the offices exercised their Plans in a simulated
             critical incident since 1996, the year the CMC Program began,

        •    the number of actual critical incidents at the office since 1996,

        •    the location of any post-exercise or post-incident reports, and

        •    additional critical incident commentary.

       We received completed surveys from 81 of the 94 USAOs, an 86 percent
response rate. The data we collected allowed us to determine how many survey
respondents exercised or activated their Plans, how many found their Plans
effective, and how many updated their Plans. The comments CMCs provided
supplemented the survey responses. A copy of the survey is included in
Appendix C.




        21The critical nature of evidence management related to the Oklahoma City bombing
came to the forefront again, long after the actual incident, when on May 11, 2001, the
Department announced that it would postpone the execution of Timothy McVeigh, after
confirming the existence of approximately 3,100 pages of previously undisclosed evidence.

U.S. Department of Justice
Office of the Inspector General                                                        10
Evaluation and Inspections Division
Interviews with Crisis Management Coordinators

      We conducted in-person and telephone interviews with a structured
sample of CMCs at 26 USAOs across the United States. Our interview sample
included five CMCs each from among USAOs that:

        •    did not respond to our survey,

        •    did not exercise, but responded to an actual incident,

        •    did exercise, but did not respond to an actual incident,

        •    neither responded to an actual incident nor exercised their Plans, and

        •    both responded to an actual incident and activated their Plans.

     In addition, we interviewed the CMC for the USAO for the District of
Columbia because it is frequently involved in responding to critical incidents
and handles both federal and local prosecutions.

Interviews with EOUSA, Criminal Division, CTS, and FBI

      As part of our review, we interviewed EOUSA, Criminal Division, CTS,
and FBI officials who have critical incident response oversight responsibilities.
Our interviews with EOUSA included the Assistant Director for Operations; the
Assistant Director for Security Programs Staff; the Assistant Director for
Evaluation and Review Staff; and the Attorney Advisor for the Office of the
Director. At the Criminal Division, we interviewed the Deputy Assistant
Attorney General responsible for CTS. At CTS, we interviewed the Chief,
Principal Deputy Chief, Deputy Chief, and six of the eight Anti-Terrorism Task
Force Regional Coordinators. At the FBI, we interviewed the SAC, the Assistant
SAC, the Unit Chief, and the Supervisory Special Agent of the CIRG Crisis
Management Unit.

Review of Background Information

      We reviewed the Department’s Crisis Management Plan (DOJ Order
1900.6A), December 12, 1988; Attorney Critical Incident Response Group
(ACIRG) Decision Memorandum, January 11, 1996; Critical Incident Response
Plan Decision Memorandum, May 23, 1996; and the Attorney General’s speech
to CMCs on June 17, 1997. We reviewed training materials for the 1997 CMC
National Training Conference held in Arlington, Virginia, and the 1999
conference held at the National Advocacy Center in Columbia, South Carolina.
We reviewed the Status of USAOs’ Preparedness to Address Critical Incidents
memorandum, October 21, 1999; EOUSA’s request to review Crisis Response

U.S. Department of Justice
Office of the Inspector General                                                11
Evaluation and Inspections Division
and Disaster Recovery Response Plans memorandum, October 15, 2001, and
the corresponding USAO responses; DOJ Fiscal Year (FY) 2001-2006 Strategic
Plan, November 2001; DOJ FY 2001 Performance Plan, February 2000; DOJ
FY 2002 Performance Report, FY 2003 Revised Final Performance Plan,
FY 2004 Performance Plan, February 28, 2003; and other appropriate
documents. Additionally, we consulted books and articles on critical incident
response practice and theory.

Critical Incident Exercise Observation

      We also observed a weapons of mass destruction exercise, “Operation
Furies,” in Alexandria, Virginia, conducted on February 8, 2003. Operation
Furies was a full-scale critical incident response exercise involving more than
400 rescue workers, law enforcement officers, and military personnel, along
with volunteer role players from the surrounding residential area and the
USAO for the Eastern District of Virginia.




U.S. Department of Justice
Office of the Inspector General                                              12
Evaluation and Inspections Division
                                      RESULTS OF THE REVIEW



        Most USAOs have not prepared comprehensive Plans to guide
        their response to critical incidents. The Plans prepared by
        USAOs overwhelmingly failed to address the 48 actions
        identified by CTS as fundamental to respond effectively to
        critical incidents and avoid past mistakes. Further, most
        USAOs have never conducted critical incident response
        exercises.    CTS and EOUSA failed to carry out their
        administrative and support responsibilities to conduct
        training, provide guidance, track and maintain the USAOs’
        Plans, and review and provide feedback on the Plans to the
        USAOs. The failure by the USAOs to implement the CMC
        Program was neither corrected nor reported to the Attorney
        General. Moreover, the Department reported in its annual
        Performance Report that the CMC Program had met its
        objectives to improve the Department’s preparedness, when it
        had not.

Most USAOs Have Not Prepared and Exercised Comprehensive
Plans to Guide Their Response to Critical Incidents

       Most USAOs failed to prepare comprehensive critical incident
response Plans. Our analysis showed that the Plans submitted by the USAOs
provide inadequate guidance to respond to a critical incident. The 48 actions
that should be taken when responding to a critical incident were contained in
the 1999 CMC Manual. The actions address essential elements of critical
incident response, including coordinating interviews to avoid multiple agency
interviews of the same person, providing for a unified evidence room and
communicating chain of custody procedures, establishing a crime scene
protocol, preserving the crime scene, and setting up overlapping relief shifts to
avoid fatigue.

       We analyzed the 76 Plans available at CTS and EOUSA and found that
most Plans substantially failed to include instruction to ensure that USAO staff
responding to a critical incident accomplishes the 48 fundamental actions.
Only 12 of the 76 Plans on file addressed at least half of the 48 actions, and
just 4 Plans addressed all 48 actions (Figure 2, next page). Many of the
omitted actions represent vital elements of an effective critical incident
response. For example, of the 76 Plans:



U.S. Department of Justice
Office of the Inspector General                                              13
Evaluation and Inspections Division
        •    67 failed to address coordination of interviews to avoid multiple
             agency interviews of the same person,

        •    61 did not provide for a unified evidence room and communicating
             chain of custody procedures,
                                                                                             Figure 2
        •    60 did not address establishment                                        48 Actions in USAO Plans
                                                                                              N = 76
             of a crime scene protocol,

        •    54 did not address preservation                         37-48                 7
             of the crime scene, and




                                                           Action Items
                                                            Addressed
                                                                     25-36             5

        •    32 failed to address setting up                         13-24                                             32
             overlapping relief shifts to avoid
             fatigue among AUSAs working a                                0-12                                         32
             critical incident.                                                  0             10         20      30         40
                                                                                                    Number of Plans
       In some cases, the Plans did not
represent even a minimal attempt to           Source: OIG review of Plans on file with CTS & EOUSA.

develop critical incident guidance. Eleven
USAOs did nothing more than insert their District’s name into a “Sample Plan”
distributed by EOUSA and attach contact lists from their office and several
other agencies.22 In three other cases, the USAOs submitted documents other
than a critical incident response plan. These documents included an Occupant
Emergency Plan, an Emergency Relocation Plan, and a “Plan” comprised of
handouts from a January 1999 FBI-sponsored workshop on Weapons of Mass
Destruction.23

      Developing Plans that address all 48 actions is essential to ensure a
comprehensive response to a critical incident and to avoid repeating missteps
that were identified in after-action reports on earlier critical incidents. For
example, the need for action to establish a crime scene protocol and better
preserve the crime scene were identified in the Oklahoma City after-action
report. The need to plan for overlapping relief shifts to avoid fatigue and the
potential for poor decision-making that may result from fatigue was

        22 The Sample Plan did not contain specific guidance on how to respond to critical
incidents, but was a format guide intended to help the USAOs in developing their own Plans.
The Sample Plan is discussed further on page 21.
        23 Occupant Emergency Plans provide for either the rapid evacuation of a building or
sheltering in place within the building, depending on the nature of the incident that triggered
the plan. Emergency Relocation Plans provide for the continuation of all essential
organizational activities in secondary locations because the primary location has become
unusable. These plans are required for USAOs, but they address activities in a context other
than crisis response, as defined in the CMC Program.

U.S. Department of Justice
Office of the Inspector General                                                                                         14
Evaluation and Inspections Division
recommended in the Ruby Ridge after-action report. Failing to develop Plans
that ensure these and other actions are accomplished increases the risk that
USAOs will respond incompletely or ineffectively to critical incidents. While the
absence of a Plan does not preclude a USAO from responding to a critical
incident, having a Plan that guides responders through all 48 fundamental
actions ensures that the USAO is better prepared to respond quickly and
appropriately to a critical incident.

       Planning to respond to critical        During our review, the Deputy Director, Security
incidents was not a priority for USAOs.       Program Staff, acknowledged some confusion
Based on the quality of the Plans, as         concerning the overall security planning effort
well as our discussions with CMCs, we         within USAOs. The confusion was the result of
                                              different directives that require USAOs to draft and
concluded that the CMC Program was            maintain six plans for separate but related
not a priority for the USAOs. In our          purposes, many of which overlap in key areas. To
interviews with 26 CMCs at the USAOs,         bolster preparedness and eliminate confusion, in
we were consistently told that more           July 2003 EOUSA recommended that USAOs draft
attention was given to competing              a core plan with individualized annexes targeting
                                              specific purposes, such as crisis response,
priorities and that the CMCs’ workload        continuity of operations, occupancy emergencies,
was not adjusted to allow time for Plan       and emergency relocation. A Security Working
development and CMC Program                   Group (SWG) comprised of U.S. Attorneys and
implementation. Several CMCs noted            EOUSA senior staff is responsible for promulgating
that there is no applicable category on       the appropriate guidelines. These actions are an
                                              indicator of EOUSA’s effort to be more responsive
their work tracking system to account         to the confusion created by overlapping plans.
for the time they spend on CMC duties.
Therefore time spent on CMC Program
related activities does not get reported as time spent directly on work that
contributes to overall office performance.

      Most USAOs have never conducted critical incident response
exercises. Over 60 percent (49 of 81) of the USAOs responding to our survey
                                             reported that they conducted no
                                             critical incident response
                   Figure 3                  exercises since 1996. Another
       USAOs Conducting Critical Response
                                             20 percent (16 USAOs) conducted
           Exercises in Last 7 Years
                     N=81
                                             one exercise during that time.
                                             Only 17 percent (14 USAOs)
               16
                        Never - 49
                                             conducted more than one exercise
                        Once - 16            in the last 7 years (Figure 3).
       49                    8   Tw ice - 8
                             3   Three times - 3                 The expectation that USAOs
                         3       Four or more times - 3   would exercise their Plans was
                     2           Unknow n - 2             clearly enunciated in 1997 by the
                                                          former Attorney General. In
                                                          speaking to all CMCs, she stated
  Source: OIG administered survey of CMCs                 that USAOs should participate in
U.S. Department of Justice
Office of the Inspector General                                                        15
Evaluation and Inspections Division
regional critical incident response exercises with their local FBI field offices
because: “The first tense hours after a bomb has exploded should not be spent
on trying for the first time to build a working relationship with your key law
enforcement agency. It is too little, too late.”24

       However, in promulgating the CMC Program, CTS and EOUSA did not
establish any specific requirements for
USAOs to conduct exercises to test their   ODP: Exercises Are An Essential Part
                                                of Critical Incident Response
Plans and practice responding to
critical incidents. Consequently, as      Experience and data show that exercises
detailed above, only a few USAOs have     are a practical and efficient way to
regularly conducted critical incident     prepare for crises.      They test critical
response exercises. 25                    resistance, identify procedural difficulties,
                                                     and provide a plan for corrective actions
                                                     to improve crisis and consequence
       We found that exercising plans is             management       response     capabilities
standard practice for emergency                      without the penalties that might be
response programs. For example,                      incurred in a real crisis. Exercises also
Federal Preparedness Circulars (FPC)                 provide a unique learning opportunity to
                                                     synchronize    and     integrate   cross-
65 and 66, which direct all Federal                  functional and intergovernmental crisis
agencies to develop continuity of                    and consequence management response.
operations plans to maintain agency
operations in the event of catastrophes,             ODP Website, (visited on April 29, 2003)
                                                     http://www.ojp.usdoj.gov/odp/exercises/state.htm
require that the plans be exercised at
least annually.26

       Similarly, within the Department, the FBI (which also prepares critical
incident response plans) requires its field offices to conduct annual crisis
response exercises. We contacted the Department’s Office of Domestic
Preparedness (ODP), which helps state and local agencies prepare to respond to
critical incidents, and found that between May 2000 and March 2003, that
office sponsored over 150 crisis response exercises.27 The Acting Director of
        24   The Attorney General’s speech at first CMC National Training Conference, June 17,
1997.
       25 CTS did encourage USAOs to participate in preparedness exercises conducted by the

FBI and by other federal and state and local agencies in their region. At both national
conferences, CTS distributed a list of exercises organized geographically to facilitate USAO
involvement in crisis response and preparedness training. This list contained numerous
exercises sponsored by ODP.

        26FPCs 65 and 66 were issued by the Federal Emergency Management Agency, on
July 26, 1999, and April 30, 2001, respectively.
        27The Office of Domestic Preparedness, which assists state and local public safety
personnel in acquiring training and equipment to manage the response to weapons of mass
destruction attacks, moved from the Department of Justice, Office of Justice Programs, to the
Department of Homeland Security on March 1, 2003.

U.S. Department of Justice
Office of the Inspector General                                                                   16
Evaluation and Inspections Division
ODP, and the Director, Exercise and Evaluation Division, ODP, told us that
preparedness depends on exercising critical incident response plans, as well as
updating and revising the Plans to reflect lessons learned. An ODP official told
us that, “Having a Plan and not exercising or revising it is the same as not
having a Plan.”

       Importantly, although few USAOs conducted exercises, most CMCs that
did conduct exercises reported that they were helpful in establishing sound
operational procedures to respond
                                                     CMC Training Recommendations
to a critical incident. We
interviewed five of the six CMCs       In a survey of the CMCs responsible for implementing the
from USAOs most directly               CMC Program (81 of 94 responding), and interviews of 26
                                       CMCs, we received numerous comments recommending
impacted by the events of              improvements to CMC Program training.             The most
September 11, 2001, who                frequent CMC training recommendations were:
confirmed the need for conducting
                                         > Organize districts by size and situation for
regular Plan exercises and               discussion. Most CMCs recommended against a “one
updating Plans. The CMCs all told        size fits all” training model. Where appropriate, lectures
us that, based on their experience,      and discussion materials should consider the inherent
                                         differences in personnel and other resources available to
well-exercised Plans save lives,         small, medium, large, and extra-large USAOs.
property, and other assets.
                                                > Address the relationship of the CMC Program to
                                                the ATTFs. Several CMCs stated that ATTF
       While we found that most                 coordinators and CMCs duties overlap, particularly in
USAOs do not regularly conduct                  coordinating with state and local agencies. One
critical incident exercises, some               interviewee suggested that CMC and ATTF coordinator
                                                training be designed so the groups can discuss areas of
USAOs did participate in exercises              joint or overlapping responsibilities.
led by the FBI’s Crisis Management
Unit (CMU). The Supervisory             > Maximize small group discussion. CMCs frequently
                                        stated that training should utilize a more interactive
Special Agent (SSA) for the FBI         format featuring pragmatic advice and information
CMU informed us that, in the 33         sharing among USAOs, rather than being “a gathering of
months from January 1999 to             talking heads” as one CMC described the prior CMC
                                        Training Conferences.
September 2001, USAOs
participated in 20 of 23 FBI-           > Conduct training on a regular basis. CMCs stated
sponsored exercises where USAO          that training in critical incident response should be
                                        conducted on a regular schedule (annual or bi-annual)
participation would have been           and the training should be mandatory.
appropriate.28 The exercises took
place throughout the country and
involved USAOs of all sizes. Scenarios ranged from a full-scale mock airliner
hijacking in Anchorage, Alaska, to a weapons of mass destruction tabletop
exercise in Pomona, New York. While the USAOs participated in the FBI CMU
exercises when they had the opportunity, we noted that, in the 33 months


        28The CMU conducts a wide range of exercises, some of which involve supporting local
law enforcement agencies. Because some of these exercises do not involve violation of federal
law, USAO involvement is not always appropriate.

U.S. Department of Justice
Office of the Inspector General                                                               17
Evaluation and Inspections Division
covered by the SSA’s records, the FBI CMU conducted exercises in less than
25 percent of the USAO districts. Therefore, most USAOs had no opportunity
to participate in an FBI-sponsored exercise.

       CTS also reported that USAOs participated in many exercises since 1997,
including cyberterrorism exercises, a “full-field” weapons of mass destruction
exercise, exercises in preparation for the 2002 Winter Olympics, and
TOPOFF 2000 and TOPOFF 2002, which were large-scale exercises simulating
coordinated terrorist attacks in multiple jurisdictions. Our survey regarding
participation in exercises (see Appendix C) was specifically designed to capture
data on USAO participation in all of the above exercises.

       USAOs report they lack training and resources to conduct exercises.
During our interviews of 26 CMCs, we asked why USAOs did not conduct more
critical incident response exercises. They responded that the primary reasons
for not conducting exercises were that they lacked information on how to
conduct exercises (14 of 26) and that small districts lacked the resources to
conduct an exercise. However, we found that some CMCs took creative steps
to identify and use local resources to conduct exercises. For example, one
CMC in a medium size USAO in the Midwestern United States told us that she
is developing a tabletop exercise, complete with video, with the assistance of a
professor at a top research university. The CMC told us that she serves on a
curriculum advisory committee for a graduate program in homeland security
that the same professor is developing. Such efforts enhanced the USAO’s
response capabilities by enabling it to draw on previously untapped resources.

CTS and EOUSA Failed to Fulfill Their Administrative and
Support Responsibilities for the CMC Program.

      We found that CTS and EOUSA did not effectively support the CMC
Program because they did not provide effective training, did not provide
adequate guidance, did not accurately track and maintain the submitted Plans,
did not review the submitted Plans, and did not evaluate the USAOs’
implementation of the CMC Program.

      CTS and EOUSA did not provide effective training. Since the
inception of the CMC Program in May 1996, CTS sponsored only two CMC
Training Conferences and one two-hour videoconference. The first training
conference took place in Arlington, Virginia, from June 17 through 20, 1997.
The second conference took place in Columbia, South Carolina, from
October 19 through 22, 1999. No additional CMC-specific training was
provided until March 2003, when CTS sponsored a two-hour videoconference
for CMCs. The Deputy Chief, CTS, confirmed that CTS neither developed nor
sponsored any other training for CMCs.

U.S. Department of Justice
Office of the Inspector General                                             18
Evaluation and Inspections Division
       Limited CMC Training. When we questioned the lack of CMC-specific
training over the previous four years, CTS told us that national CMC training
had been planned for Fall 2001 or Spring 2002. According to CTS, this
training was initially deferred after the events of September 11, 2001, to
accommodate other required training, and then deferred further because many
of those who would have been the trainers or trainees were involved in the
nationwide investigation of the terrorist attacks. In August 2003, in response
to a draft of this report, CTS told us that additional preparedness and response
training was scheduled for March 2004.

       We assessed the training agendas of the 1997 and 1999 CMC training
conferences and viewed a videotape of the 2003 videoconference. We found
that CMCs received little specific instruction on how to develop Plans and
conduct critical incident exercises. According to the 1997 CMC Training
Conference agenda, during the three-day conference the CMCs received three
hours of instruction on developing crisis response plans and spent three hours
in a group assignment on planning exercises. Similarly, during the 1999 CMC
Training Conference CMCs participated in a two and one-half hour session
covering “Development and Testing of a District Plan and Intra-district
Coordination of Planning Efforts.” The most attention given to either topic
related to conducting exercises occurred at the 1999 conference. Participants
spent four hours in a general session discussing two possible terrorist attack
scenarios, after which they met in small groups to discuss one of the scenarios
for 90 minutes. The session concluded with a 45-minute review for all
participants.

      In addition to reviewing the 1997 and 1999 Conference agendas, we
discussed training during our interviews with CMCs across the country. All
but one of the 26 CMCs we interviewed indicated that the prior training was
inadequate and that they needed additional training. Further, the CMCs stated
that the training should be revised to include changes that have occurred since
the last CMC Training Conference in 1999. The changes include the post
September 11, 2001, reorganization of the Department to focus on
counterterrorism; the passage of the USA PATRIOT Act and other terrorism-
related legislation; the reorganization of the Criminal Division; the issuance of
the National Strategy for Homeland Security; the formation of the Department
of Homeland Security; and the creation of the ATTFs within USAOs. While
these topics were addressed in the ATTF training conducted since September
2001, we found that few CMCs have attended that training.

      Regarding the lack of CMC Program training, CTS confirmed that it did
not conduct more CMC-specific training after 1999. CTS also stated that it has
no line authority over the USAOs and, thus, can provide guidance but not
dictate what the USAOs do. CTS told us that with the Department’s increased
focus on prevention, it is working to see that fewer incidents occur and that
U.S. Department of Justice
Office of the Inspector General                                              19
Evaluation and Inspections Division
there is less need for response activity. CTS stated that it is addressing
preparedness through such activities such as increased planning and
cooperative action between FBI Strategic Information Operations Center and
CTS, the establishment of a national process tracking system, and a CTS
website being piloted to 18 USAOs.

       Other Training Fails to Fully Address Critical Incident Response
Planning. During our review, the CTS Chief told us that ATTF training focused
on both prevention and crisis response. He further stated that the training
conducted for ATTF Coordinators covered much of the information needed by
CMCs. CTS cited several examples of training that they believed met the needs
of the CMCs, including:

        •    Between April 2002 and November 2002, approximately 1,600
             prosecutors and law enforcement officers were trained at seven
             regional and national anti-terrorism conferences. One of the sessions
             at the November 2001 ATTF conference in Washington, D.C.
             addressed crisis management and was led by an experienced CMC.

        •    In January 2002, in order to comply with a directive issued by the
             Attorney General at the November 2001 conference, EOUSA broadcast
             a live, four-day teleconference to an estimated 25,000 viewers.

        •    In January 2003, 72 U.S. Attorneys were trained at an anti-terrorism
             conference.

        •    Between May and September 2003 (after fieldwork on our review was
             complete), approximately 330 prosecutors and 500 FBI supervisors
             received updated training at six national security conferences, each of
             which included a tabletop crisis response exercise.

       Because the CTS Chief stated that ATTF training addressed CMC needs,
we reviewed the training materials from the two national ATTF training
conferences and the six regional training conferences. We found that the ATTF
training focused on intelligence gathering and information sharing to prevent
terrorist attacks. The training neither addressed preparing to respond to an
attack or other critical incidents, nor developing and exercising a critical
incident response plan.29 While we found the first ATTF conference included a
session on crisis response, we also found that crisis response information was
not covered at the following six regional training conferences, nor the second

        29  The single reference to the CMC Program that we found was a list of CMC telephone
numbers dated January 22, 2002. The only region to address the need for preparing for
critical incidents was the Northeastern Region.

U.S. Department of Justice
Office of the Inspector General                                                          20
Evaluation and Inspections Division
National Conference. Further, 10 of the 26 CMCs we interviewed also hold the
ATTF Coordinator position for their USAO. In the last 2 years, these 10 CMCs
attended the 2 ATTF national conferences and a regional training conference.
Without exception, the CMCs told us they believe that the ATTF training was
not a substitute for additional CMC-specific training.

       Although CTS provided information that showed USAO staff members
have attended numerous training events related to the ATTF initiative, our
review found that this training did not replace or diminish the need for CMC
training. Our review of the training agendas and curricula found that most of
the training focused on the primary ATTF goals of identifying and preventing
terrorist attacks, not on responding when attacks occur. In addition, while
some of the training did address preparing to respond to attacks, our review of
the attendee lists found that few CMCs attended that training. For example, no
CMCs attended the January 2003 U.S. Attorney Anti-Terrorism Conference,
and only 52 of the CMCs attended one of the six national security conferences
conducted between May and September 2003. Further, ATTF training that did
address response capabilities focused on responding to the threat of terrorism,
not on responding to other critical incidents. The inadequacy of the ATTF
training as a substitute for CMC training was confirmed in our interviews with
26 CMCs, as most (24 of the 26) identified the lack of training as the major
hurdle they faced in improving the readiness of their offices to respond to a
critical incident.

       In addition to the ATTF training, CTS stated that many USAOs had been
involved in “real-life” events such as responding to the September 11, 2001,
terrorist attacks, and subsequent terrorism investigations, and suggested that
those responses served as training. The actions of USAOs in responding to
critical incidents could result in improvements to preparedness for later events
if they were followed by after-action reviews, identification of weaknesses, and
improvements to the process. However, we found that was not occurring. In
May 2003, we contacted the 81 USAOs that responded to our initial survey to
determine if they had made any substantive changes to their Plans.30 The
responses we received from 53 USAOs indicated that only 8 had ever updated
their Plans. While responding to “real-life” events does provide experience, the
failure to fully exploit that experience by identifying shortcomings and
improving response Plans leaves the USAOs at risk of repeating mistakes
during future incidents.

      Based on our review of the CMC training materials, our evaluation of the
Plans submitted, our interviews with CMCs, and our determination that the

        30We defined “substantive” as changes in policy, scope, or procedures, as opposed to
“administrative only” changes, such as updating telephone contact lists.

U.S. Department of Justice
Office of the Inspector General                                                          21
Evaluation and Inspections Division
ATTF training did not provide a substitute for the CMC training, we concluded
that the training provided to CMCs has not sufficiently prepared them to
develop and exercise critical incident response plans. The inadequate CMC
training contributed to the poor quality of the Plans submitted by the USAOs.31
The uniform poor quality of the Plans and CMC feedback strongly suggest that
the CMCs need additional training to provide them with the guidance that will
enable them to prepare complete crisis response Plans, as well as to implement
effective exercises to test the Plans.

      CTS and EOUSA provided minimal guidance to the CMC Program.
From 1996 until May 2003, CTS and EOUSA guidance to CMCs consisted of
providing CMCs with the CMC Manual at the 1997 and 1999 conferences, and
a “Sample Plan” sent to them in October 1999. This paucity of guidance was
confirmed by the responses of all CMCs we interviewed. Significantly, most
CMCs appointed since 1999 said that they were either unaware of the CMC
Manual or unaware that it was available through USABook Online, the internal
Department of Justice website for USAOs. Also, as with training, we found
that the CMC Manual has not been updated since October 1999, and therefore
does not reflect the critical changes in departmental and national policy since
September 2001.

      Further, we found that CTS and EOUSA did not work together to develop
appropriate guidance for the CMC Program. For example, without notifying
CTS, in October 1999 EOUSA distributed a five-page Sample Crisis Response
Plan (Sample Plan) to CMCs. The Assistant Director for the EOUSA Security
Programs Staff (SPS) told us that EOUSA distributed the Sample Plan after
noting a serious inconsistency in format of the initial plans submitted by
USAOs. According to EOUSA, the Sample Plan was never intended to be a
comprehensive template, but was intended as a resource for CMCs to use in
preparing district-specific Plans.

       We reviewed the Sample Plan and confirmed that it is primarily a format
guide. It does not provide complete guidance for USAOs. As a format guide,
the Sample Plan was not designed to be scalable to meet the varying size,
location, and vulnerabilities of all USAOs. Further, the Sample Plan gives
examples, but does not mention many of the 48 actions recommended in the
CMC Manual, such as coordinating with the FBI, ensuring the availability of
specialized resources, and cooperating with state and local agencies.



        31As discussed earlier in this report, our review of the 76 Plans available at CTS and
EOUSA found 62 do not address most of the 48 actions deemed essential to a critical incident
response by CTS, and our survey of CMCs found that since the Program’s inception in 1996,
60 percent of USAOs have never conducted an exercise.

U.S. Department of Justice
Office of the Inspector General                                                            22
Evaluation and Inspections Division
        The Deputy Chief, CTS, told us that, after CTS learned of the EOUSA
Sample Plan, it did not support its distribution. According to the Deputy Chief,
each USAO has unique requirements and CTS was concerned that some
USAOs would merely adopt the Sample Plan without modification.32 However,
she stated, at that time CTS did not have the resources to develop a sample
plan that would address all the varying needs of the USAOs. When we asked
her if CTS had contacted either EOUSA or any USAO to communicate this
concern, she told us that it had not.

       In May 2003, near the end of our review, CTS issued a “Guide to
Developing a Crisis Response Plan.” CTS requested that the CMCs review and
revise their Plans using the Guide as a baseline.33 The USAOs were instructed
to submit their revised Plans to their Regional ATTF Coordinators and the ATTF
Coordinator at EOUSA. As of August 2003, USAOs reported that they were in
the process of revising their Plans.

       CMCs cite need for additional guidance. The CMCs we interviewed
identified several areas of needed guidance. For example, half of the CMCs
(including CMCs that were also ATTF Coordinators) cited the lack of a forum to
improve communication of CMC Program information. CMCs told us that they
would benefit from a web-based system that would allow them to share
information such as:

        •    key resource documents for the CMC Program,

        •    preliminary guidance for newly appointed CMCs,

        •    critical incident response planning procedures from USAOs organized
             by size and region,

        •    expert guidance on conducting tabletop exercises based on realistic
             scenarios of all magnitudes, not just international terrorist incidents,

        •    best practices and innovative approaches, and


        Our review of the 76 Plans on file with CTS and EOUSA, as well as our interviews
        32

with CMCs substantiated CTS’s concern. Our review of the Plans showed that at least 11
USAOs simply put their district’s name on the plan, added a phone list, and submitted it back
to EOUSA.
        33Attachments to this Guide included a re-release of several outdated documents,
some from as far back as 1994. Included was an unrevised copy of Chapter 2 of the CMC
Manual, “Practical Tips.” CTS did not revise the “Critical Incident Checklist for the Initial 48-
Hours” to reflect legislative and policy changes that have taken place since September 11,
2001.

U.S. Department of Justice
Office of the Inspector General                                                               23
Evaluation and Inspections Division
                     •                         bulletins notifying CMCs of developments affecting the CMC Program,
                                               such as the Department of Homeland Security Presidential
                                               Directive.34

       The CMCs also requested guidance on the relationship between the CMC
Program and the Department’s counterterrorism mission, additional training
reflecting the changes in law and policy regarding critical incident response
since 1999, individualized feedback on submitted Plans, and information on
conducting exercises tailored to the size of the district (Figure 4).

       During our exit conference with CTS in which we discussed the findings
of this review, CTS told us that it is developing a website intended to address
these issues, among others. As of September 12, 2003, the website was being
pilot- tested at 18 USAOs. According to CTS, full access is planned for all
USAOs by the end of October 2003.



                                                            Figure 4 - CMC Requested Support and Guidance
       Area of Support Requested by CMCS




                                                                                                                     National Training
                                                                                                                     Conference -92%

                                                                                               Feedback on Plans -
                                                                                                     62%
                                                                                              How to conduct
                                                                                              exercises - 54%
                                                                                              Improved
                                                                                          communication among
                                                                                             CMCs - 50%
                                                                     Model Plan - scalable
                                                                    and size relevant - 31%

                                                             Training based on size
                                                                and needs - 23%

                                           0            5                10              15                20         25                 30
                                                                                 Number of requests



  Source: OIG CMC Interviews.




            While we acknowledge the CMC’s comments that the lack of a forum makes it more
                     34

difficult for them to share information, we noted that it has not prevented all CMCs from
sharing information. In fact, more than 25 percent of the CMCs we interviewed told us that
they used personal contacts to obtain information from other USAOs to assist in writing their
Plans.

U.S. Department of Justice
Office of the Inspector General                                                                                                           24
Evaluation and Inspections Division
      CTS and EOUSA failed to accurately track and maintain the Plans
submitted by USAOs, resulting in lost Plans. We found that both CTS’s and
EOUSA’s tracking and maintenance of submitted Plans were disorganized and
inadequate. Neither organization was able to accurately identify which USAOs
had submitted a Plan, nor were they able to ensure that the Plans on file were
current.

       We found that the problems with CTS and EOUSA’s management of
submitted Plans began at receipt. Neither CTS nor EOUSA date stamped the
Plans upon receipt. Our review of the 76 Plans submitted found almost
40 percent had no publication or submission date. As a result, it was not
possible to determine from CTS’s and EOUSA’s records if those Plans were the
current versions in use at the USAOs. When we asked the Security Programs
Staff (SPS) Assistant Director about the lack of date stamping, he confirmed
that they had no mechanism for tracking Plans, other than a checklist
containing a listing of the USAOs and corresponding boxes that were checked
to indicate an office had submitted a Plan.

       We found that CTS and EOUSA have no system for ensuring that they
both have the same Plans in their inventory. The Deputy Chief, CTS,
confirmed continuing disparity in the inventories. According to the Deputy
Chief, after the second CMC conference, CTS started to inventory and review
the Plans and found that it did not have the number of Plans that EOUSA said
that it had. She indicated that CTS has since tried to obtain the missing Plans,
but has been unsuccessful. We asked EOUSA why it did not provide the Plans
to CTS, and EOUSA indicated that it was not aware of any outstanding CTS
requests.

       As a result, different offices reported different counts of submitted plans.
According to EOUSA, 88 Plans have been submitted since 1996. However, a
list provided by CTS indicated that 81 USAOs submitted Plans. Moreover, in
the FY 2001 Performance Report, the Department reported that 88 of the 94
USAO Districts had submitted Plans by the end of FY 2001.35 To establish an
accurate count, we conducted a physical inventory of all of the Plans available
at CTS and EOUSA and determined that only 76 Plans were on file.36


        35Department of Justice, FY 2001 Performance Report & DOJ FY 2002 Revised Final,
FY 2003 Performance Plan, page 223. The Justice Management Division collected the data
used in the report.
        36 In August 2003, in response to a draft of this report, CTS reiterated that it had 81
Plans on file and provided a list of the Plans. We reviewed the list and found it omitted the
Northern Mariana Islands federal judicial district, but did list four Plans that were not among
the Plans initially made available to us. When we asked to review the four plans, CTS could
not find two and had the USAOs provide copies by facsimile. The Principle Deputy Chief, CTS,
speculated that the four Plans may have been out of the files during our review because CTS
U.S. Department of Justice
Office of the Inspector General                                                            25
Evaluation and Inspections Division
       The discrepancy between the reported number of submitted Plans and
the number we found on file apparently occurred because six USAOs attempted
to submit their Plans but the Plans were lost, and six other USAOs were
counted as having submitted Plans in error. Specifically, in response to our
request for further information on the Plans that had been submitted, the SPS
Assistant Director provided 88 USAO responses to an October 2001 e-mail in
which the USAOs were requested to review their Plans, ensure that the Plans
were current and complete, and confirm completion of the review by e-mail.37
Among the 88 responses were 12 e-mails from USAOs that our review found
had no Plans on file. Six of the e-mails indicated that an electronic copy of the
USAOs’ Plans had been included as an attachment, and the other six e-mails
indicated that the USAO had reviewed the Plans as requested, but did not
indicate that a copy was attached. When we asked the SPS Assistant Director
if he or his staff had printed the six attached Plans, he told us that the
electronic copies, including all attachments, had been deleted. Nonetheless,
based on the receipt of 88 e-mail responses, the SPS Assistant Director
reported that 88 USAOs had submitted their Plans.

      CTS did not review timely submitted Plans or provide feedback to
USAOs. Although most USAOs submitted their Plans to CTS and EOUSA as
required, CTS did not review timely or adequately submitted Plans and failed to
act when its review showed that the Plans were severely deficient in content
and quality.38 CTS did not review the Plans as it received them, and some
Plans remained on file for as long as five years before CTS began its review.
CTS never provided feedback to each USAO on its individual plan and, as a
result, USAOs continued to rely on Plans that substantially failed to address
the fundamental actions necessary to respond effectively to a critical incident.
Our interviews showed that the CMCs wanted feedback on the Plans. All but
one of the 26 CMCs we interviewed indicated that they were unsure of the
quality of their Plans and strongly desired feedback regarding Plan quality and
content. After additional training, feedback on the Plans was the most
frequently requested support identified by CMCs.



staff may have been working with them, but she could not be sure because the individual
responsible for maintaining the files was on detail in another city.

        37EOUSA Memorandum to All USAOs, “Review of Crisis Response and Disaster
Recovery Plans,” October 15, 2001.
        38 After the completion of our fieldwork, CTS provided the inspection team with the
name of a former staff attorney who said he reviewed all of the Plans that were submitted as of
the end of September 1999. When interviewed, he told us that he did not recall the exact
number of Plans reviewed nor did he write up individual Plan reviews, but his overall
assessment was that the Plans were not detailed and were generally of poor quality. He also
told us that he informed the CTS Deputy Chief of his findings.

U.S. Department of Justice
Office of the Inspector General                                                            26
Evaluation and Inspections Division
       The CTS Deputy Chief told us that the reason CTS did not complete the
reviews or provide feedback to the USAOs was that CTS did not have the
resources to conduct individualized Plan reviews. Therefore, CTS opted instead
to develop its own model plan.39 Beginning in early to mid-2001, nearly five
years after CTS began receiving Plans, four CTS attorneys began reviewing the
Plans on file in order to draft a model plan to guide USAOs in revising their
Plans. Each attorney reviewed approximately
10 plans in conjunction with their work on                     CMC Feedback -
                                                       Need for CTS review of Plans
drafting the model plan. Approximately 5 to 10
plans were identified as having “best practices”      “Feedback would be helpful,
or provisions worthy of inclusion in a revised        any kind of feedback…
model plan that would address content, not just       observations, insights… I
format. However, CTS’s initial review also            would love to see some
                                                      feedback – model plans, best
revealed serious shortcomings in the submitted        practices, any type of
Plans. Nonetheless, there was an additional           information to make the plans
two-year delay before CTS issued its Guide to         more effective… We are not
Developing a Crisis Response Plan in May              doing this for bureaucratic
2003. 40 In August 2003, USAOs reported that          reasons.”
they were in the process of revising their Plans.     - CMC from a large-size USAO in the
                                                             southern United States
      EOUSA neglected to examine CMC
Program implementation during evaluations of USAO operations. We
found that EOUSA only recently included a minimal examination of the USAOs’
implementation of the CMC Program in the triennial operations reviews
conducted on each USAO. During the triennial operations reviews, EOUSA’s
Evaluation and Review Staff (EARS) evaluates “the performance of the Offices of
the United States Attorneys, making appropriate reports and taking corrective
action where necessary.”41 When we initially interviewed the EARS Assistant
Director, he told us that the CMC Program was not part of EOUSA’s triennial
operations reviews of USAOs. In a subsequent interview, he informed us that,
in October 2002, two questions regarding the CMC Program were added to a
Security Evaluator’s Checklist completed by evaluators during the reviews.
The questions added to the checklist were:


       39 As discussed on page 23 of this report, in May 2003, CTS sent all CMCs a “Guide to

Developing a Crisis Response Plan.”
        40 As noted earlier in this report, after the completion of our fieldwork, CTS provided
the inspection team with the name of a former staff attorney who reviewed all of the Plans that
were submitted as of the end of September 1999. When interviewed, he told us that he did not
recall the exact number of Plans reviewed nor did he write up individual Plan reviews, but his
overall assessment was that the Plans were not detailed and were generally of poor quality. He
also told us that he informed the CTS Deputy Chief of his findings.
        41 EOUSA website, http://www.usdoj.gov/usao/eousa/mission.html#backtotop,
April 9, 2003.

U.S. Department of Justice
Office of the Inspector General                                                            27
Evaluation and Inspections Division
        •    Has the Crisis Response Coordinator developed the Crisis Response
             Plan and provided a copy to the Security Program Staff?

        •    Has the Crisis Response Plan been reviewed by the District Office
             Security Manager and signed by the U.S. Attorney?

       We asked the EARS Assistant Director why the CMC Program was not
reviewed in more depth during the triennial operations reviews. He stated that
EARS currently lacks the resources to evaluate the CMC Program in greater
detail. When we posed the same question to the SPS Assistant Director, he
asserted that the Plans are prosecutorial plans, not security plans. He stated
that the Plans are not within the purview of the SPS to review, but are more
appropriate to be reviewed by CTS. Further, he pointed out that the
individuals reviewing the security operations are generally security personnel,
who may not have extensive legal training, and therefore would not be
appropriate to evaluate a prosecutorial plan. We asked the SPS Assistant
Director if he had requested CTS’s assistance in formulating appropriate
evaluation questions for the CMC Program. He stated that he had not, and
assumed that if CTS wanted the CMC Program evaluated, it would contact
EARS directly.

      We reviewed the reports from 18 EARS reviews conducted since those
questions were added. We found the questions were checked off without any
additional information provided. Moreover, the limited information contained
in the reports was inconsistent with what we found when we reviewed the
Plans available at CTS and EOUSA. Four of the 18 triennial operations reviews
were conducted at USAOs that we found had no Plans on file with CTS or
EOUSA, but the reports indicated that the USAOs had submitted Plans. In
contrast, one report on a USAO that we confirmed had submitted a Plan
indicated the opposite.




U.S. Department of Justice
Office of the Inspector General                                                  28
Evaluation and Inspections Division
The Department Overstated the CMC Program Implementation
in Its Annual Performance Reports.

       We found significant discrepancies between the reported performance of
the CMC Program in the Department’s Annual Performance Reports and the
actual performance of the USAOs, CTS, and EOUSA in implementing the CMC
Program.42 While the performance measure was the number of USAOs with
Plans, the supporting narrative indicated that all of the Plans (88) had been
submitted and reviewed by CTS. The narrative also stated that the Plans met
certain minimum content standards and provided a crosswalk with FBI and
local and regional crisis response plans. However, we found that the number,
the process, and the content of the Plans were all reported incorrectly. As a
result, the intent of the performance measure – to ensure that the Department
was fully prepared to respond to critical incidents – was not clearly met.

     In its FY 2000 Performance Plan, as a part of its strategic objective to
“Improve Response Capabilities to Terrorists’ Acts,” the Department established
                                                             a goal of having Plans in
                                                             place at 90 of the 94
                             Figure 5
       Goal v. Actual Plans Submitted, FY 1998 - FY 2001
                                                             USAOs by the end of FY
                                                             2002.43 In FY 2001, JMD
      100
                                         90 88
                                                             reported that 88 USAOs
       90
                                     80
                                                             had completed their Plans
       80                                                    based on the USAOs’
       70
                                60                           responses to an e-mail
       60                                                    survey conducted by
       50                                                    EOUSA (Figure 5). The
                                                      Goal
       40                                                    Department declared the
                                                      Actual
       30
                          20                                 performance measure
       20
                 10                                          “met,” and eliminated the
       10
            0          0                                     performance measure from
        0
                                                             future Annual Performance
             FY98      FY99      FY00     FY01
                                                             Reports.44


     Source: OIG administered survey of CMCs


        42 Each fiscal year, the Department develops a Performance Plan that describes how it
will achieve the objectives of its overall Strategic Plan. The following fiscal year, the
Department issues a Performance Report that details its progress at achieving those objectives.
        43Department of Justice, FY 2000 Performance Report & FY 2001 Performance Plan,
April 2001, page 29.
         Department of Justice, FY 2001 Summary Performance Report, page 223,
        44

Appendix A – Discontinued Measures Performance Report.

U.S. Department of Justice
Office of the Inspector General                                                           29
Evaluation and Inspections Division
      In addition to reporting the number of Plans submitted, several
Performance Reports also contained a narrative that described the content of
the Plans, and the support that CTS and EOUSA had provided to the CMC
Program.45 That narrative stated that: 1) CTS had reviewed the Plans
submitted by the USAOs, 2) the Plans provided specific information to guide
the response to a terrorist attack, and 3) the Department was providing
continuing support to the CMC Program.

      Our review did not corroborate the reported level of performance and the
claims of continued CMC Program guidance and administration. For example,
the FY 2000 Performance Plan stated:

             These plans articulate the steps each office would take in
             the event of a terrorist act or other critical incident in their
             jurisdiction. Critical aspects of each plan include a listing
             of essential points of contact with state and local
             authorities, including first responders and other emergency
             personnel; identification of potential infrastructure targets,
             in both the public and private sector; and coordination
             with the local the FBI field office and other law enforcement
             entities.46

•   Our review found that the vast majority of the Plans submitted did not
    “articulate the steps each office would take in the event of a terrorist act or
    other critical incident in their jurisdiction.” Neither did they “establish a
    framework to enable each U.S. Attorney’s Office to address and plan for the
    steps to be taken in the event of a terrorist or other critical threat or act in
    their jurisdiction.” Moreover, not one plan identified potential infrastructure
    targets.

             Data Validation and Verification: The plans are evaluated
             to determine if they meet the criteria of a complete plan.
             This criteria [sic] the Attorney General includes, but is not
             limited to whether resource support elements such as other




        45Department of Justice, FY 2001 Summary Performance Report, February 2000;
Department of Justice, Department of Justice, FY 2000 Performance Report & FY 2001
Performance Plan, April 2001; Department of Justice, FY 2002 Performance Report/FY 2003
Revised Final/FY 2004 Performance Plan, February 2003.
         Strategic Objective 1.4 Terrorism, Deter and detect terrorist incidents by developing
        46

maximum intelligence and investigative capability. FY 2000 Performance Report and FY 2002
Performance Plan – April 2001 (pages 34 and 35).

U.S. Department of Justice
Office of the Inspector General                                                           30
Evaluation and Inspections Division
             government agencies (FEMA, National Guard, etc.) are
             identified.47

•   Our review found that CTS did not review the Plans as they were submitted,
    and did not begin a systematic review until 2001. Although that review
    disclosed the poor quality of the Plans, CTS never provided feedback to the
    USAOs to inform them that the Plans substantially failed to address the 48
    actions that should be taken when responding to a critical incident.

             Strategies and Initiatives to Achieve the FY 2002 Goal: Our
             strategy is to build maximum feasible capability in the
             counterterrorism program, allowing the Department to
             identify and address terrorist threats…It means that all
             elements of crisis and consequence management at the
             federal, state, and local levels throughout the country will
             have developed and implemented integrated terrorism
             response plans [emphasis added].

•   Despite the declaration of the Criminal Division in the FY 2000 Performance
    Report and FY 2002 Performance Plan that the performance measure for the
    number of submitted USAO Plans had been achieved, and the removal of plan
    submission from future performance plans, our review found that integrated
    terrorism incident response plans have not been developed and implemented.




        47Department of Justice, FY 2001 Performance Report/FY 2002 Revised Final,
FY 2003 Performance Plan, Section 1.4B, Improve Response Capabilities to Terrorists’ Acts,
April 2001.

U.S. Department of Justice
Office of the Inspector General                                                          31
Evaluation and Inspections Division
                     CONCLUSION AND RECOMMENDATIONS



      We concluded that the Department has not effectively implemented the
CMC Program to ensure that the USAOs are ready to quickly and appropriately
respond to critical incidents. Both the National Strategy for Homeland Security
and the Department’s Anti-Terrorism Plan establish responding effectively to
such incidents as one of three main strategic objectives for the Department.
The CMC Program, which began in 1996, remains the core activity of the
USAOs response planning effort.

       Although CTS provided the USAOs with guidance that identified 48
fundamental actions needed to plan their response to a critical incident in
1999, most critical incident response plans prepared by the USAOs failed to
reflect that guidance. Of the 76 Plans that we reviewed, only 12 Plans
addressed half or more of the 48 fundamental actions. Further, the USAOs
rarely conducted exercises to test their Plans and practice critical incident
response procedures. These deficiencies occurred because the USAOs did not
place a high priority on response planning.

       We also found that CTS and EOUSA did not fulfill their responsibilities to
administer and support the Program. After holding two national training
conferences in 1997 and 1999, CTS and EOUSA provided no further CMC-
specific training in critical incident response until March 2003. CTS reviewed
only a few of the Plans prepared by USAOs, and did not act when that limited
review found the Plans to be largely incomplete and inadequate. Further,
EOUSA does not evaluate CMC Program implementation during its periodic
operational reviews of each USAO. Finally, the Department’s Annual
Performance Reports substantially overstated the achievements of the CMC
Program at improving the USAOs’ and the Department’s preparedness to
respond to critical incidents.

       In summary, since 1996, the USAOs, CTS, and EOUSA have failed to
implement Plans to improve the preparedness of the USAOs to respond to
critical incidents. The first priority of the Department and the National
Strategy for Homeland Security is to prevent terrorism, but those initiatives
also recognize that there is a commensurate need to be prepared to respond to
incidents that cannot be prevented. As stated in the Department’s FY 2003
and 2004 Performance Plan, “to effectively address international and domestic
terrorism, DOJ must concentrate on both prevention and response.”48 The

         Department of Justice, FY 2002 Performance Report/FY 2003 Revised Final
        48

Performance Plan/FY 2004 Performance Plan, page 1.

U.S. Department of Justice
Office of the Inspector General                                                    32
Evaluation and Inspections Division
failure of the USAOs, CTS, and EOUSA to fully implement the CMC Program
leaves the Department less prepared to respond effectively when critical
incidents occur.

       In March 2003, CTS recommended that the CMC Program be
incorporated into the ATTF/ATAC initiative. The recommendation was
approved October 17, 2003. Although placed under the ATACs, the CMCs “will
remain responsible for the creation, implementation, maintenance and exercise
of their district’s crisis response plan….”49 However, the ATACs are only
responsible for responding in the event of terrorist attacks, not other critical
incidents. It is not clear whether the ATACs’ responsibilities will be expanded
to include non-terrorist critical incidents, or whether the CMCs are still
responsible for responding to non-terrorist critical incidents separately.
Therefore, it is unclear how the realignment of the CMCs may affect the USAOs’
ability to respond to critical incidents, especially those that are not terrorist-
related.

      As this review showed, the need to prepare for all critical incidents has
not been met. Therefore, we provide ten recommendations to improve the
preparedness of the USAOs to respond to critical incidents.

We recommend that the Deputy Attorney General:

        1. Ensure that performance measures are developed to assess the
           readiness of USAOs to respond to critical incidents.

We recommend that all United States Attorneys:

        2. Revise the critical incident response plans to address the action items
           identified by CTS, and regularly update the plans to reflect changes in
           law, departmental policy, or local procedures.

        3. Conduct and participate in periodic exercises to test the critical
           incident response plans and practice responding to critical incidents.

        4. Establish workload reporting procedures that capture the time
           dedicated to critical incident response planning duties.




        49Memorandum from Guy Lewis, Director, EOUSA, to All United States Attorneys,
“Merger and Realignment of Crisis Management Coordinators Program Under Anti-Terrorism
Advisory Council,” October17, 2003.


U.S. Department of Justice
Office of the Inspector General                                                     33
Evaluation and Inspections Division
We recommend that the Assistant Attorney General, Criminal Division:

        5. Provide updated training and guidance to USAOs on how to prepare
           effective and comprehensive critical incident response plans. The
           guidance should reflect changes in legislation, policy, and critical
           incident response practice that have taken place since September 11,
           2001.

        6. Review all USAOs’ Plans, including revisions, to ensure that the Plans
           cover all critical areas; provide individualized feedback to USAOs; and
           periodically report to the Deputy Attorney General on the status of the
           USAOs’ Plans.

        7. Provide USAOs with training and guidance on how to develop and
           conduct appropriate critical incident response exercises, either
           independently or in conjunction with the FBI or other offices.

        8. In conjunction with EOUSA, complete the development of a critical
           incident response website with information on critical incident
           response, including lessons learned, exercise scenarios, and best
           practices.

We recommend that the Director, EOUSA:

        9. Establish a system for accurately tracking and reporting the status of
           USAO submissions and updates to critical incident response plans.

      10. With advice from CTS, revise the operations review process to include
          a full evaluation of the preparedness of USAOs to respond to critical
          incidents.




U.S. Department of Justice
Office of the Inspector General                                               34
Evaluation and Inspections Division
            APPENDIX A - Critical Incident Response Plan Content Analysis                                                                  Number and Percentage of
                                                                                                                                         Plans Failing to Address Action
                                                                                                                                                       Items
                                                                                                                                                           Percentage of
                                                                                                                                       Number of 76
 Action                                                                                                                                                    76 Plans
  Item                                CTS-Recommended Action Items (from 48-Hour Checklist)                                            Plans Failing to
                                                                                                                                                           Failing to
                                                                                                                                       Address Item
                                                                                                                                                           Address Item

    1      Obtain the best information available on the incident                                                                              30               39%

    2      Determine FBI plans for establishing a command post                                                                                24               32%

    3      Advise EOUSA and CTS per the DOJ Crisis Response Plan                                                                              21               28%

    4      Establish clear communication channels with Headquarters                                                                           31               41%

    5      Establish initial support needs and liaison with Criminal Division                                                                 57               74%

    6     Deploy AUSAs consistent with incident magnitude                                                                                     12               16%

    7     Ensure that deployed AUSAs know their role and interrelationships                                                                   16               21%

    8     Plan for overlapping relief shifts for AUSAs to ensure coverage and smooth transitions                                              32               42%

          Designate a Senior AUSA to handle reassignment of crisis response AUSAS to include contact with court regarding postponing
    9                                                                                                                                         45               59%
          court calendar

   10     Ensure availability of victim/witness resources and service                                                                         21               26%

   11     Ensure AUSAs have appropriate equipment (e.g., cell phones, laptops, ACIRG Manual, electronic forms)                                33               43%

   12     Ensure availability of accommodations and transportation if event outside USAO area                                                 52               67%

   13     Identify information flow at command post                                                                                           38               50%

   14     Assign AUSAs at critical information flow points within the command post and the "SAC's Room"                                       53               70%

   15     Ensure AUSAs know investigative developments in timely manner                                                                       51               67%

   16     Designate AUSA(s) to review affidavits and applications for process to ensure advisability, accuracy, consistency                   47               62%

   17     Designate case agents                                                                                                               54               71%


U.S. Department of Justice
Office of the Inspector General                                                                                      35
Evaluation and Inspections Division
            APPENDIX A - Critical Incident Response Plan Content Analysis                                                                            Number and Percentage of
                                                                                                                                                   Plans Failing to Address Action
                                                                                                                                                                 Items
                                                                                                                                                                     Percentage of
                                                                                                                                                 Number of 76
 Action                                                                                                                                                              76 Plans
  Item                                CTS-Recommended Action Items (from 48-Hour Checklist)                                                      Plans Failing to
                                                                                                                                                                     Failing to
                                                                                                                                                 Address Item
                                                                                                                                                                     Address Item

   18     Review law enforcement coordination between federal agencies, and state and local authorities                                                 38               50%

   19     Ensure FBI/HQ does not initiate investigative action in other field offices without coordinating with command post                            56               72%

   20     Have FBI/HQ take affirmative steps to ensure that other FBI offices do not self-initiate investigative activity without coordination          57               74%

          Ensure with SAC/On-Scene Commander that the following are used ONLY with coordination with USAO (e.g., composites, informal
   21                                                                                                                                                   54               70%
          immunity, photo identification, search warrants)
          Review media procedures with SAC/On-Scene Commander (e.g., coordinating public statements with USAO, monitor pretrial
   22                                                                                                                                                   31               39%
          publicity for litigation issues)

   23     Ensure interviews are coordinated to avoid multiple agency interviews                                                                         67               87%

   24     Ensure consistent procedure in conducting/documenting interviews (e.g., one write-up, consistent format across agencies)                      67               87%

   25     Preserve crime scene consistent with life-saving requirements                                                                                 54               70%

   26     Ensure single, coordinated crime scene protocol                                                                                               60               79%

   27     Ensure orderly presentation of evidence at trial through limited witnesses (e.g., search team leaders)                                        63               82%

   28     Establish single, unified evidence room and communicate chain of custody procedures                                                           61               80%

   29     General coordination with EOUSA and CTS to ensure USAOs receive instructions on how to proceed                                                62               80%

   30     Coordinate on issuing grand jury subpoenas                                                                                                    63               82%

   31     Coordinate applications for process, search warrants, arrest warrants, pen registers                                                          60               78%

   32     Coordinate on using photo spreads, lineups, hypnosis, polygraphs, informal immunities                                                         64               83%

   33     Coordinate on issuing public statements                                                                                                       49               64%

   34     Check availability of grand jury                                                                                                              62               80%


U.S. Department of Justice
Office of the Inspector General                                                                                          36
Evaluation and Inspections Division
            APPENDIX A - Critical Incident Response Plan Content Analysis                                                                          Number and Percentage of
                                                                                                                                                 Plans Failing to Address Action
                                                                                                                                                               Items
                                                                                                                                                                   Percentage of
                                                                                                                                               Number of 76
 Action                                                                                                                                                            76 Plans
  Item                                CTS-Recommended Action Items (from 48-Hour Checklist)                                                    Plans Failing to
                                                                                                                                                                   Failing to
                                                                                                                                               Address Item
                                                                                                                                                                   Address Item

   35     Assess remaining life of grand jury/juries                                                                                                  62               80%

   36     Coordinate with court concerning special grand jury sections                                                                                62               80%

   37      Assess need for voir dire of grand jurors if they are within scope of potential victims                                                    59               76%

   38      Assign paralegal or clerk to log subpoenas provided to law enforcement and to maintain record of disposition                               65               84%

          If out of district prosecutors involved, obtain necessary grand jury authorizations for official appearances before grand jury and
   39                                                                                                                                                 67               87%
          ensure same filed with clerk

   40     Check availability of resources/personnel - Rapid Start                                                                                     66               86%

   41     Check availability of resources/personnel with forensic expertise                                                                           61               79%

   42     Check availability of resources/personnel for sketch artist                                                                                 66               86%

   43     Check availability of resources/personnel – photographer                                                                                    66               86%

   44     Special Projects Unit to ensure timely initial measurements for potential mock-ups at trial                                                 66               86%

   45     Coordinate concerning availability of grand jury                                                                                            63               82%

   46     Coordinate procedure for around the clock availability of judges for issuance of process                                                    56               72%

   47     Develop a regional crisis management plan                                                                                                   60               78%

   48     List of contacts at every relevant federal, state, and local agency which may be called on to participate                                   34               45%




U.S. Department of Justice
Office of the Inspector General                                                                                         37
Evaluation and Inspections Division
                                  APPENDIX B
                     CONTENT OF CMC TRAINING CONFERENCES


CMC Training Conferences

       The first of two Crisis Management Coordinators’ Conferences (CMC
Conference) took place on June 17-20, 1997, in Arlington, Virginia. CTS trial
attorneys, in conjunction with AUSAs assigned temporarily to the EOUSA
Office of Legal Education (OLE), planned and conducted the training.

      The second CMC Conference took place on October 19-22, 1999, at the
National Advocacy Center (NAC) in Columbia, South Carolina.50 Presenters
included officials from CTS, the FBI Crisis Management Unit, EOUSA, USAOs,
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF), FBI, Federal
Emergency Management Agency (FEMA), and the Departments of Defense,
Energy, and Health and Human Services.

        1997 CMC Conference:

       Presenters included officials from CTS, EOUSA, USAOs, the FBI, the
Office for Victims of Crime, FEMA, and the ATF who addressed CMCs on
critical incident response. Topics covered in the training included:

        •    coordinating with and supporting the FBI command post,

        •    participating in regional FBI crisis response training,

        •    recognizing the relationship between intelligence, investigations, and
             criminal prosecutions,

        •    coordinating with law enforcement and emergency response agencies,

        •    understanding laws combating terrorism,

        •    servicing victims and families of victims,

        •    dealing with the media,

        •    conducting tabletop exercises, and

        •    developing a plan.

        50  EOUSA operates the NAC, which trains federal, state, and local prosecutors and
litigators in advocacy skills and management of legal operations.

U.S. Department of Justice
Office of the Inspector General                                                              38
Evaluation and Inspections Division
        1999 CMC Conference:

      Information provided by OLE indicated that the 1999 CMC training
conference covered:

        •    preventing terrorist acts as a departmental priority,

        •    preparing for potential chemical, nuclear, and biological incidents on
             a federal, state, and local level,

        •    upgrading crisis response capabilities,

        •    responding to victim and witness needs,

        •    developing and testing Plans, and

        •    coordinating intra-district crisis planning.

CMC Manual Topics

      Organization of Federal Resources – Provides telephone list, list of spring
1999 Attorney Critical Incident Response Group (ACIRG) members, and ACIRG
organizational overviews (including description of PDD 36 on “Lead Agency
Authority).

     Practical Tips – Contains the Crisis Incident Checklist for Initial 48
Hours, information on preserving and cataloging evidence, assisting in trial
preparation, and cooperating during multi-agency investigations.

       Legal Reference – Contains information on and analysis of domestic
terrorism offenses, jurisdictional issues, and statutes relevant to terrorism
incidents.

      Methods for Obtaining Existing Evidence – Contains a discussion of
proper methods for search and seizure of physical evidence, including the
proper execution of search and arrest warrants.

       Methods for Developing Evidence – Contains information on proper
identification of suspects, surveillance techniques, testimonial evidence, and
witness issues.

      Dealing with the Media and the Public – Contains information on
releasing information to the media and the public (including coordination with
the FBI), obtaining information from the media, and denying the public and the
media access to sensitive information.

U.S. Department of Justice
Office of the Inspector General                                                 39
Evaluation and Inspections Division
      Special Issues – Contains information on using military resources and
the use of deadly force.

      Terrorism Involving Chemical, Biological, Radiological and Nuclear
(CBRN) Weapons – Contains information on the federal response to a CBRN
incident and specialized resources available.




U.S. Department of Justice
Office of the Inspector General                                            40
Evaluation and Inspections Division
                                       APPENDIX C
                                CMC SURVEY INSTRUMENT


                                      Crisis Management Coordinator Survey
             Fill out contact information and check boxes below, unless otherwise noted.
           Please return completed survey as an e-mail attachment to [usdoj.gov].

          NOTE: Critical incidents include, but are not limited to, acts of terrorism, hostage/barricade
  situations, and acts of criminal civil disorder

           Name/Title
           District

  1. Does your office have a Critical Incident Response Plan (CIRP) on file with the Executive
     Office for United States Attorneys?
                            Yes             No            Don’t Know/Not Applicable

  2. How many times has your office exercised the CIRP in a simulated critical incident
     since 1996?
         If your office did not exercise the CIRP, skip questions 2a and 2b and go to Question 3.
                     1       2        3       4+      Don’t Know/Not Applicable

           2a. Were the exercises effective in preparing for critical incidents?
             Effective      Neutral          Not Effective Don’t Know/Not Applicable

           2b. Did your office update or revise the CIRP after the exercise?
                     Yes             No              Don’t Know/Not Applicable

  3. How many times has your office experienced an actual critical incident since 1996?
                 1      2        3      4+      Don’t Know/Not Applicable

           3a. How many times did you activate the CIRP in response to a critical incident?
                   1      2       3       4+      Don’t Know/Not Applicable

           3b. How effective was the CIRP in responding to critical incidents?
             Effective       Neutral        Not Effective Don’t Know/Not Applicable

           3c. Did you update or revise the CIRP in response to actual critical incidents?
                      Yes            No             Don’t Know/Not Applicable

  4. Does your office prepare post-exercise or post-critical incident reports?
                    Yes            No             Don’t Know/Not Applicable

  5. If your office does prepare post-exercise or post-critical incident reports, where are
     they kept? ______________________________________________________________________

  6. Please provide any comments, suggestions, and ideas on CIRPs that you may have.

              Please e-mail completed survey to U.S. Dept. of Justice, Office of the Inspector General,
                       Evaluation and Inspections Division. Attn: xxxxxxxxxxxxxi@usdoj.gov




U.S. Department of Justice
Office of the Inspector General                                                                           41
Evaluation and Inspections Division
                             APPENDIX D
              CRITICAL INCIDENT CHRONOLOGY: 1988-2003


December 1988 DOJ Crisis Management Plan. Attorney General issued the DOJ Crisis
              Management Plan.
October 1989        National Preparedness Programs. Attorney General established the DOJ
                    National Security Emergency Preparedness Program and the National Security
                    Regional Emergency Preparedness Program.
August 1992         Ruby Ridge. On a remote ridge in northern Idaho, a week-long stand-off
                    between Randy Weaver and federal agents ended in a shootout during which an
                    FBI sniper shot and killed Weaver’s wife and infant son. Subsequent
                    government reports criticized the critical incident response capabilities of the
                    USAO in handling the incident.

August 1992         Hurricane Andrew. On August 24, 1992, Dade County, Florida, experienced
                    the third most powerful storm to hit the United States and the most costly
                    natural disaster ever recorded. Property damage exceeded $20 billion and left
                    nearly 200,000 Floridians homeless. The disaster resulted in a severe and
                    extended disruption of normal activities, including government services, in an
                    area of approximately 100 square miles.
February 1993       World Trade Center Bombing. On February 26, 1993, an explosive device
                    detonated on the second level of the World Trade Center parking basement.
                    The blast produced a crater approximately 150 feet in diameter and five floors
                    deep, killed six people, and injured more than one thousand. Four individuals
                    were convicted of the bombing on March 4, 1994.
February -          Branch Davidian Standoff. A 51-day standoff at the Branch Davidians’ Mt.
April 1993          Carmel compound near Waco, Texas, ended on April 19, 1993, when fire
                    consumed the compound, killing the Branch Davidian leader, David Koresh,
                    and most of his followers. Subsequent government reports recommended
                    evaluating the adequacy of communications among the different elements in a
                    crisis, particularly between the negotiating and tactical elements.
April 1994          Critical Incident Response Group. FBI established the Critical Incident
                    Response Group (CIRG) to more effectively deal with hostage-taking and
                    barricade situations.
April 1995          Oklahoma City Bombing. On April 19, 1995 a bomb exploded in front of the
                    Alfred P. Murrah Federal Building in Oklahoma City, Oklahoma, destroying
                    about one-third of the structure. The explosion killed 168 people. In June
                    1997, a jury convicted Timothy J. McVeigh on all counts connected with the
                    bombing and sentenced him to death. McVeigh was executed on June 11,
                    2001.
June 1995           Presidential Decision Directive 39. Established critical incident response
                    capabilities as a government-wide priority.
January 1996        ACIRG. Attorney General established Attorney Critical Incident Response
                    Group to provide expert assistance to the Attorney General and USAOs in the
                    event of a crisis.



U.S. Department of Justice                                                                       42
Office of the Inspector General
Evaluation and Inspections Division
March – June        Freemen Standoff. The FBI attempted to arrest more than a dozen individuals
1996                wanted on charges that included circulating $15 billion in bogus checks and
                    threatening to kill a federal judge. The attempt resulted in an 81-day long
                    armed standoff. On June 13, 16 members of the group surrendered, ending the
                    longest federal siege in modern U.S. history. The incident culminated in the
                    conviction of 21 defendants in 3 separate trials spanning 15 weeks.
May 1996            Critical Incident Response Plan. Attorney General established a Critical
                    Incident Response Plan that required United States Attorneys to develop
                    Critical Incident Response Plans to help ensure “quick and appropriate”
                    response.
June 1997           First CMC Conference. Distribution of first edition of the Crisis Management
                    Coordinator Manual developed by the Criminal Division.
May 1998            Presidential Decision Directive 62. “Protection Against Unconventional Threats
                    to the Homeland and Americans Overseas.” Established the National Special
                    Security Event (NSSE), which is an event of such national significance that it
                    warrants the availability of the full protective and consequence management
                    capabilities of the federal government. The three lead agencies for NSSEs are
                    FBI, FEMA, and U.S. Secret Service.
July 1999           USAO Critical Incident Response Plans. Memorandum from Assistant Director,
                    EOUSA, to all USAOs asking for submission of their critical incident response
                    plans.
October 1999        Second CMC Conference.
September           September 11, 2001. Terrorists hijacked four airplanes, three of which flew
2001                into the World Trade Center and the Pentagon. More than 3,000 people were
                    killed in the attacks.
September           Anti-Terrorism Plan. Attorney General issued the Department’s Anti-Terrorism
2001                Plan ordering every United States Attorney to implement the plan. The plan
                    focused on prevention “by arresting and detaining violators…who participate in,
                    or lend support to, terrorist activities [and] use every available law enforcement
                    tool to incapacitate these individuals and their organizations.”
September           Anti-Terrorism Task Forces. Attorney General established Anti-Terrorism Task
2001                Forces (ATTFs) in each USAO that will 1) serve as a conduit of information
                    about suspected terrorists, 2) implement an operational plan for the prevention
                    of terrorism, and 3) serve as a standing organizational structure for a
                    coordinated response to a terrorist incident.
October 2001        Guidance for ATTFs. Deputy Attorney General issued a seven-page
                    memorandum on “Guidance for Anti-Terrorism Task Forces.”
October 2001        USAO Review of Plans. Memorandum from Director, EOUSA, requesting that
                    each USAO review its Critical Incident Response Plan to ensure that it is
                    “current, complete, and known by persons…responsible for crisis response.”
October 2001        USA PATRIOT Act. Uniting and Strengthening America by Providing
                    Appropriate Tools Required to Intercept and Obstruct Terrorism (USA PATRIOT
                    ACT) passed by Congress to “to deter and punish terrorist acts in the United
                    States and around the world, to enhance law enforcement investigatory tools,
                    and for other purposes.”




U.S. Department of Justice                                                                       43
Office of the Inspector General
Evaluation and Inspections Division
October 2001        Anthrax Attacks. Anthrax-contaminated letters mailed to Washington, DC, and
                    locations in New York and Florida.
October 2001        CONPLAN issued. United States Government Interagency Domestic Terrorism
                    Concept of Operations Plan (CONPLAN) developed through the offices of six
                    primary departments and agencies with responsibilities as identified in
                    Presidential Decision Directive 39 (PDD 39). It was designed to provide overall
                    guidance to federal, state, and local agencies concerning how the federal
                    government would respond to a potential or actual terrorist threat that occurs
                    in the United States, particularly one involving weapons of mass destruction.
November 2001 ATTF Training. Two national 3-day training sessions and six regional 2-day
- January 2003 training sessions held for Anti-Terrorism Coordinators.
November 2001 DOJ Strategic Plan. FY 2001–2006 Strategic Plan issued. USAO Critical
              Incident Response Plans are discussed as part of Goal One: Protect America
              Against the Threat of Terrorism.
November 2001 Blueprint for Change. Attorney General announced the “Blueprint for Change,
              A Plan to Reshape the Department and Its Components to Focus on Anti-
              Terrorism.”
July 2002           National Strategy for Homeland Security. President issued National Strategy for
                    Homeland Security, which identified three strategic objectives: 1) prevent
                    domestic terrorist attacks, 2) reduce vulnerability to terrorism, and 3) minimize
                    damage and recover from attacks that occur.
November 2002 Reorganization of the Criminal Division. Attorney General divided the
              Terrorism and Violent Crime Section into the Counterterrorism Section and the
              Domestic Security Section.51
February 2003       Homeland Security Presidential Directive 5. President outlined a policy to
                    prevent, prepare for, respond to, and recover from terrorist attacks, major
                    disasters, and other emergencies.
February 2003       DOJ Performance Report. Release of Department of Justice, FY 2002
                    Performance Report/FY 2003 Revised Final Performance Plan/FY 2004
                    Performance Plan, in which Attorney General states: “To effectively address
                    international and domestic terrorism, DOJ must concentrate on both
                    prevention and response.”
March 2003          Department of Homeland Security established.




        51 The Counterterrorism Section is responsible for the design, implementation, and

support of law enforcement efforts, legislative initiatives, policies, and strategies relating to
international and domestic terrorism. The Domestic Security Section is responsible for
prosecutions of border-related crimes such as alien smuggling and international arms
trafficking.
U.S. Department of Justice                                                                          44
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX E
              CRIMINAL DIVISION’S AND EXECUTIVE
    OFFICE FOR THE UNITED STATES ATTORNEYS RESPONSE




U.S. Department of Justice                            45
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            46
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            47
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            48
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            49
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            50
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            51
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX F
          OFFICE OF THE INSPECTOR GENERAL’S ANALYSIS OF
         THE CRIMINAL DIVISION’S AND THE EXECUTIVE OFFICE
           FOR UNITED STATES ATTORNEYS’ RESPONSE


       The Office of the Inspector General (OIG) sent copies of the draft report to
the Executive Office for United States Attorneys (EOUSA) and the Criminal
Division (CRM) with a request for written comments. The Director of EOUSA
and the Assistant Attorney General for the Criminal Division responded to us
in a joint memorandum dated November 10, 2003. Although EOUSA and CRM
expressed concerns about several of the report’s conclusions, they concurred
with nine of the recommendations and partially concurred with the tenth. Our
analysis of their response follows.

Response from CRM and EOUSA

       CRM and EOUSA agree that they could have focused more attention on
certain aspects of the crisis response program. However, they believe that the
report should more clearly reflect that the Department of Justice (Department)
is better prepared today to respond to critical incidents than it has been in the
past. CRM and EOUSA suggest that much of the OIG’s report focuses on
historical flaws in their process for developing and assessing critical incident
response plans (Plans), and that readers of the report may misunderstand the
scope and nature of their past and current response preparation efforts. The
CRM and EOUSA response provides detailed comments regarding three points
that they believe deserve greater recognition. We examine each of these points
in turn.


Specific Issues

A. Critical Incident Response Plans

       CRM and EOUSA state that the draft OIG report “does not place the
existence and use of the Critical Response Plans in the appropriate context.”
They suggest that the quality of a United States Attorney’s Office (USAO) Plan
is only one part of “answering the broader question of whether USAOs are
prepared to respond to critical incidents.” CRM and EOUSA state that some of
the recommended actions on the 48-item checklist “are so second nature to the
experienced prosecutors drafting and/or implementing these plans that there
would be no need to specifically list them.” Consequently, they argue that
examining whether a USAO has included items on the checklist in its Plan is
not a proper standard for judging the USAO’s preparedness to respond to a
U.S. Department of Justice                                                      52
Office of the Inspector General
Evaluation and Inspections Division
crisis. In addition, CRM and EOUSA state that some of the actions on the
checklist are “primarily under the domain of the FBI [Federal Bureau of
Investigation] or another law enforcement entity” with the USAOs in a
supporting role and, therefore, those actions would not need to be addressed in
the USAOs’ Plans.

       OIG Analysis. We agree that the Plans are only one part of the USAOs’
critical incident response preparations. Therefore, in this review we examined
other Crisis Management Coordinator (CMC) Program activities such as the
training provided to USAOs’ CMCs, the crisis response exercises conducted by
USAOs, and the Counterterrorism Section’s (CTS’s) and EOUSA’s support and
administration of the CMC Program. We found significant deficiencies not only
in the Plans, but also in those other activities. Consequently, our conclusion
that USAOs have not prepared adequately is based on a more comprehensive
review of critical incident response deficiencies than acknowledged by CTS and
EOUSA.

       We do not agree with CRM and EOUSA’s contention that “some of the
recommended actions in the 48-item checklist…are so second nature to
experienced prosecutors” that they need not be included in the crisis response
Plans. As demonstrated during numerous past critical incidents, even
experienced personnel may forget obvious actions that are usually “second
nature.” Further, our interviews with 26 CMCs, all of whom are highly
experienced prosecutors, confirmed that the 48 items on the checklist should
be addressed in the Plans and are appropriate actions to take in responding to
a critical incident.52

      Moreover, while some of the 48 items on the checklist clearly are more
important than others, our review found that most of the Plans omitted more
than a few actions that might be considered “second-nature.” Sixty-four of the
76 Plans (84 percent) addressed less than half of the 48 items and many of the
missing items represented significant actions in a crisis situation. For
example, 54 Plans failed to address crime scene protocols and preservation,
which were identified as problems in the Oklahoma City Bombing after-action
report. Including all 48 items in the Plans ensures that they will be addressed
during training, exercises, and when responding to a critical incident. While
we agree that some of the actions may be “second nature” during routine
operations, we believe that failing to incorporate all 48 actions in the USAOs’
Plans creates a needless risk that some actions will be omitted during a critical
incident.




         The CTS itself validated the checklist by reissuing it as current guidance in May
        52

2003 as part of its new “Guide to Developing a Crisis Response Plan.”
U.S. Department of Justice                                                                   53
Office of the Inspector General
Evaluation and Inspections Division
      Regarding CRM and EOUSA’s contention that some of the actions on the
checklist are “primarily under the domain of the FBI or another law
enforcement entity,” we acknowledge that many entities may be involved in
responding to a critical incident. However, the U.S. Attorney is the chief law
enforcement officer in each federal judicial district, and the 48 action items
were included on the checklist because the USAOs have a significant interest
in each activity, even if they are not the lead entity for each item.
U.S. Attorneys should prepare and train for any aspect of the government’s
response that will affect their ability to conduct a successful investigation and
prosecution.

       Finally, as described in the Department’s Performance Plan, one purpose
of the USAOs’ Plans is to provide a “cross-walk” with the Plans of the FBI and
other law enforcement entities. In accord with that purpose, addressing all 48
actions in the USAOs’ Plans is essential for ensuring that the Department’s
response to a critical incident is coordinated and effective, regardless of
jurisdictional authorities.

B. CTS’ and EOUSA’s Efforts After September 11, 2001

       CRM and EOUSA state, “The draft report does not clearly acknowledge
the extensive and comprehensive joint efforts undertaken during the past two
years to enhance the Department’s overall ability to respond to critical
incidents.” Further, they state that “the draft report…does not adequately
reflect the substantial changes that were made in CTS, EOUSA, and the USAOs
in response to 9/11 to focus attention on critical response to terrorism
incidents,” such as the revised Strategic Plan and the Anti-Terrorism Advisory
Council (ATAC).53 Finally, CRM and EOUSA state that the report “faults CTS
and EOUSA for failing to provide appropriate training and guidance as to
changes in law and departmental and national policy (Draft report at iii, 18,
22),” and cite several examples of training that they state “specifically
addressed crisis response in terrorism and provided updated legal” training to
improve the ability of the USAOs to respond to a crisis.

       OIG Analysis. As stated by CRM and EOUSA, after September 11, 2001,
the Attorney General directed that the Department refocus its efforts on
preventing terrorism. Consequently, CTS, EOUSA, and the USAOs all
substantially refocused and undertook several major initiatives to prevent
terrorist attacks. Our report acknowledges some of these initiatives, such as
the training of 1,600 prosecutors and law enforcement officers, a 4-day anti-
terrorism teleconference to 25,000 viewers, an anti-terrorism conference

        53Attorney General Memorandum to all United States Attorneys, “Responsibilities of
Anti-Terrorism Advisory Councils (ATACs),” September 24, 2003. The ATACs were formerly
known as Anti-Terrorism Task Forces (ATTFs).
U.S. Department of Justice                                                                   54
Office of the Inspector General
Evaluation and Inspections Division
attended by U.S. Attorneys in January 2003, and 6 national security
conferences attended by prosecutors and FBI supervisors (page 20). However,
while CTS and EOUSA have taken significant steps to respond to the threat of
terrorism by improving the Department’s ability to prevent attacks, which we
acknowledge, there is a significant difference between preventing attacks and
preparing to handle a crisis if prevention efforts fail. Our review focused on the
USAOs’ preparations to respond in the event that terrorist attacks – or other
critical incidents that do not involve terrorism – occur.

       During our review, we examined the training cited by CRM and EOUSA
and found that it was not complete or effective because it did not sufficiently
address critical incident response (as opposed to preventing terrorist attacks),
and few CMC Program staff attended the training. For example, we reviewed
the two national ATTF training conferences and the six regional training
conferences and found that the training focused on intelligence gathering and
information sharing to prevent terrorist attacks, not on preparing to respond
after an attack or other critical incident. Only the first ATTF conference
included a session on crisis response and it was only a small part of the
agenda.

        Moreover, our review of the attendee lists from training events related to
the ATTF initiative found that few CMCs attended the training. For example,
the CTS provided us with the rosters from three training events: National
Security Conferences, May-July 2003; Bioterrorism Conference, April 2003;
and National Security Conference, September 2003. Based on our most recent
list of CMCs, we found that 52 of 94 CMCs attended the May-July National
Security Conference, 14 attended the April Bioterrorism Conference, and none
attended the September National Security Conference.

       Our conclusion that the training provided to CMCs was inadequate was
confirmed in our interviews with CMCs, as most (24 of the 26) identified the
lack of training as the major hurdle they faced in improving the readiness of
their offices to respond to a critical incident. In particular, all ten of the CMCs
we interviewed who also hold the ATTF Coordinator position for their USAOs
told us that the ATTF training they attended was not a substitute for CMC-
specific training.

       CRM and EOUSA’s statement that the report “faults CTS and EOUSA for
failing to provide appropriate training and guidance as to changes in law and
departmental and national policy (Draft report at iii, 18, 22)” is incorrect. We
reported a lack of training, but, as is made clear on page 19, it was the USAOs’
CMCs who reported to us during interviews that they needed additional
training on changes in law and departmental policy. Specifically, the report
states: “the CMCs stated that the training should be revised to include
changes that have occurred since the last CMC Training Conference in 1999.
U.S. Department of Justice                                                       55
Office of the Inspector General
Evaluation and Inspections Division
The changes include the post September 11, 2001, reorganization of the
Department to focus on counterterrorism; the passage of the USA PATRIOT Act
and other terrorism-related legislation” and other changes. We included the
CMCs’ statements so that CTS and EOUSA could consider addressing the
CMCs’ self-identified needs when developing future training.

       Therefore, while we acknowledged CTS and EOUSA’s significant efforts
since September 11, 2001, those efforts have been directed predominantly at
improving the ability of the Department to prevent terrorist attacks. Although
preventing attacks is of primary importance, the Attorney General’s Anti-
Terrorism Plan also directs the Department to be prepared to respond when
terrorist attacks or other critical incidents occur. Despite CTS and EOUSA’s
efforts, our review of the USAOs’ preparations to respond after attacks and
other critical incidents found that the Plans were inadequate; that few USAOs
conducted exercises to test their Plans; and that CTS and EOUSA did not fulfill
their administrative and support responsibilities to provide guidance and
conduct crisis response training. These deficiencies existed from the inception
of the CMC Program in 1996 and still have not been addressed adequately.
Consequently, we maintain that the USAOs have not effectively implemented
the CMC Program. However, we acknowledged that CTS and EOUSA have
begun to address these deficiencies, as they stated in their Action Plan
included with their response to the report.

C. CTS and EOUSA’s Efforts Since the Late Fall of 2002

       CRM and EOUSA stated that although they could have “done more to
focus attention on certain aspects of the crisis response program, especially
between September 11, 2001, and the fall of 2002, [they] have been working
together since then to provide the necessary focus and training to improve the
crisis response program.” They cite various collaborative training efforts and
an October 17, 2003, Departmental memorandum to all United States
Attorneys to “re-appoint a CMC that will operate under the auspices of the
ATAC” as evidence “that crisis response efforts are currently being enhanced to
respond to areas for improvement noted in the OIG report.”

      OIG Analysis. We considered the training and other efforts that CRM
and EOUSA cited as evidence that improvements are underway. We reviewed
each of the efforts they described, but found that many were not as effective as
they could have been for improving the CMC Program (as described in our
response in section B), or that the efforts had not yet taken place. For
example:

        •    The Anti-Terrorism Conference for U.S. Attorneys in January 2003
             (pages 20-21). This conference was only for U.S. Attorneys and no
             CMCs attended. Consequently, although the conference included a
U.S. Department of Justice                                                       56
Office of the Inspector General
Evaluation and Inspections Division
             module on crisis response, the training was not presented to the staff
             responsible for planning the response (i.e., CMCs). In addition, the
             CMCs’ responses to our February 2003 survey strongly indicated that
             training was lacking.

        •    The March 2003 CMC-specific videoconference (pages 19, 23, and 24).
             We reviewed a videotape of the two-hour teleconference. The training
             included no new information regarding the CMC Program itself. Other
             than citing the need for USAOs to conduct exercises, there was no
             training content directed at conducting crisis response exercises, one
             of the areas of need most consistently cited in our interviews with
             CMCs. Coverage of the USA PATRIOT Act and the Bio-terrorism Act of
             2002 consisted of presenting a brief synopsis of the Acts, rather than
             an in-depth discussion of their impact on the CMC Program.

        •    The development and dissemination of the “Guide to Developing a
             Model Crisis Response Plan” (page 23). We acknowledge that the
             Guide was distributed to USAOs in May 2003. However, during our
             review no USAO Plans were revised based on the Guide and submitted
             to CRM and EOUSA.

        •    The establishment of a working group to issue guidelines for USAOs
             security plans (page 15). We acknowledge CRM and EOUSA’s plans to
             create a working group to review integration of the various plans
             required from USAOs. However, their response did not provide us
             with details on the role, responsibilities, and assigned activities of this
             working group.

        •    A March 2003 request to place the CMC Program under the auspices
             of the ATAC (page v). This proposal was not approved until
             October 17, 2003, well after the draft report was provided to CRM and
             EOUSA, and the impact of this consolidation is not yet clear.
             Although placed under the ATACs, the CMCs “will remain responsible
             for the creation, implementation, maintenance and exercise of their
             district’s crisis response plan….”54 However, the ATACs are only
             responsible for responding in the event of terrorist attacks, not other
             critical incidents. It is not clear whether the ATACs’ responsibilities
             will be expanded to include non-terrorist critical incidents, or whether
             the CMCs are still responsible for responding to non-terrorist critical
             incidents separately. Until such issues are resolved, we cannot

        54Memorandum from Guy Lewis, Director, EOUSA, to All United States Attorneys,
“Merger and Realignment of Crisis Management Coordinators Program Under Anti-Terrorism
Advisory Council,” October17, 2003.

U.S. Department of Justice                                                           57
Office of the Inspector General
Evaluation and Inspections Division
             determine how the realignment of the CMCs may affect the USAOs’
             ability to respond to critical incidents, especially those that are not
             terrorist-related.

        •    Planning for crisis response training at the National Advocacy Center
             in March 2004 (pages 6 and 19). We note in the report that CTS and
             EOUSA are planning CMC training in March 2004.

      Our report also acknowledged that, since we began our review in
December 2002, CTS and EOUSA increased their attention to the CMC
Program. Those efforts ultimately could significantly improve the USAOs’ crisis
response preparations. However, the deficiencies we found in our review of the
USAOs’ plans and exercises, the training provided to CMCs, and the
administration and support provided by CTS and EOUSA show that significant
improvements are still needed.

D. The Report’s Final Conclusion

       CRM and EOUSA state that the report’s final conclusion concerning the
Department’s overall preparedness “exceeds the scope of an inquiry that was
limited to a review of critical incident response plans and does not properly
credit all the steps taken by EOUSA, CTS, and the USAOs.” They assert that
this is particularly significant because the report does not contain a time frame
for the inspection, but “includes the finding that the need to prepare for critical
incidents has not been met.” CRM and EOUSA conclude by stating that they
will continue to seek to improve preparedness, but believe “that a complete
review of past efforts, current work, and future plans demonstrates that the
need to prepare is being properly addressed.”

       OIG Analysis. The CRM and EOUSA response understates the scope of
our review. As described on page i, “We conducted this review to determine
whether the USAOs have acted to improve their ability to respond quickly and
appropriately to critical incidents by developing comprehensive critical incident
response plans, training staff to carry out the Plans, and exercising the Plans.”
We also considered all of the past, current, and planned efforts cited by CTS
and EOUSA as contributing to the USAOs’ preparedness to respond to critical
incidents. In addition, our survey and interviews with CMCs addressed many
aspects of the USAOs’ crisis response preparations. We found significant
shortcomings in each of these areas, which led us to conclude that “[t]he
failure of the USAOs, CTS, and EOUSA to fully implement the CMC Program
leaves the Department less prepared to respond effectively when critical
incidents occur” (page 32) (emphasis added). In our report, we did not
conclude that the Department was “unprepared” to respond to a critical
incident. Rather, we concluded that the Department was “less prepared” than
it could have been – and should be – to respond to critical incidents.
U.S. Department of Justice                                                             58
Office of the Inspector General
Evaluation and Inspections Division
       That conclusion is warranted because we found that significant
deficiencies in the majority of USAOs’ Plans have remained uncorrected for
years, that few USAOs conducted regular crisis response exercises since 1996
(most conducted no exercises), and that the training provided to CMCs was
inadequate. Further, notwithstanding current efforts, CTS and EOUSA’s
support and administration of the CMC Program have not been effective to
correct the deficiencies.55 The inadequate and incomplete preparations we
documented contradict CRM and EOUSA’s opinion “that a complete review of
past efforts, current work, and future plans demonstrates that the need to
prepare is being properly addressed.” The corrective actions that CRM and
EOUSA agreed to implement, and have begun to implement in response to our
review and its ten recommendations (described below), once completed, will
help ensure that USAOs are better prepared to respond to critical incidents.

      Regarding CRM and EOUSA’s statement that the draft report contained
“no statement concerning the timeframe” of the review, our final report
includes the beginning and end dates of our review—the review began in
December 2002 and ended in October 2003.

RECOMMENDATIONS

Recommendation 1: Resolved – Open

       Summary of CRM and EOUSA’s Response: CRM and EOUSA agree that
performance measures should reflect that USAOs have “meaningful plans and
periodically exercise and revise those plans.” To that end, EOUSA and CTS will
develop performance measures to assess, exercise, and revise crisis response
plans by June 30, 2004. However, CRM and EOUSA state, “The establishment
of performance measures to evaluate overall readiness is a more complex
matter and exceeds the scope of this review.”

      OIG Analysis. The actions planned by CTS and EOUSA – to jointly
develop performance measures to assess critical incident response plans, as
well as the USAOs’ exercise and revision of those plans – are responsive to our
recommendation. Please provide us with a copy of the performance measures
by July 9, 2004, as well as CTS and EOUSA’s plan to implement and track the
performance measures.

    The CRM and EOUSA’s objection that measuring the overall readiness of
USAOs exceeds the scope of the review misconstrues our recommendation.

        55In May 2003, CTS issued its new “Guide to Developing a Crisis Response Plan” with
instructions for USAOs to review and revise their Plans based on the Guide. However, during
our review no USAO Plans were revised based on the Guide and submitted to CRM and
EOUSA.
U.S. Department of Justice                                                               59
Office of the Inspector General
Evaluation and Inspections Division
Our recommendation was to establish performance measures “to assess the
readiness of USAOs to respond to critical incidents.” By establishing
performance measures to assess the significant products and activities
associated with critical incident response preparedness, which is within the
scope of this review, CRM and EOUSA will meet the intent of this
recommendation.

Recommendation 2: Resolved – Open

       Summary of CRM and EOUSA’s Response. CRM and EOUSA state that
USAOs are revising their Plans in accordance with the “Guide to Developing a
Model Crisis Response Plan” issued in May 2003. CRM and EOUSA further
state that they are forming a small working group with participation from the
Attorney General’s Advisory Committee to review the revised Plans and provide
“individualized feedback to all USAOs.” Lastly, they state that CTS and EOUSA
have scheduled crisis response training at the National Advocacy Center in
March 2004, which will include a tabletop exercise to test each USAO’s Plan.

      OIG Analysis. The actions planned by CTS and EOUSA are responsive to
our recommendation. By January 15, 2004, please provide us with the charter
or other instructions for the working group and the criteria developed for
evaluating the USAOs’ Plans. By July 9, 2004, please provide us with a list of
USAOs that have submitted revised Plans and received feedback on the revised
Plans.

Recommendation 3: Unresolved – Open

       Summary of CRM and EOUSA’s Response. CRM and EOUSA agree that
participation in periodic exercises to test critical incident response plans is
advisable, but disagree that each USAO should be required to conduct its own
exercises. CRM and EOUSA state that this requirement may be a burden for
some offices, particularly smaller offices, and could divert USAOs from other
equally important duties. With respect to participating in periodic exercises of
the Plans, CRM states that CTS is enhancing its expertise in designing crisis
response exercises in order to provide specific guidance to USAOs. Finally,
CRM and EOUSA state that the agenda for the March 2004 training at the
National Advocacy Center will include crisis response exercises.

      OIG Analysis. The CRM and EOUSA response does not address our
recommendation that each USAO follow the standard practice of testing its
plan for responding in the event of a critical incident.56 While conducting full


        56Conducting crisis response exercises is standard practice for emergency response
programs throughout government. For example, as described on page 16 of this report, the
FBI requires its field offices to conduct annual crisis response exercises, and the Federal
U.S. Department of Justice                                                                    60
Office of the Inspector General
Evaluation and Inspections Division
field exercises may be burdensome for some USAOs, the intent of our
recommendation may be met with exercises that are limited in scope (e.g.,
tabletop exercises) or frequency (e.g., triennial exercises in lieu of annual
exercises), or that are conducted in conjunction with another agency (e.g.,
another USAO or the FBI). We note that CTS and EOUSA intend to include
exercises in the agenda for the planned March 2004 training. However, while
small segments on conducting exercises were included in the 1997 and 1999
CMC training, over 60 percent (49 of 81) of the USAOs responding to our
survey still reported that they had conducted no exercises since 1996.
Therefore, by January 15, 2004, please provide us with an appropriate
requirement and implementing guidance for USAOs to periodically conduct
exercises or to participate in exercises led by other organizations. As CRM and
EOUSA agreed in response to Recommendation 1 to develop performance
measures to “assess crisis response plans and [the] exercise…of those plans,”
the exercise requirements should be consistent with the performance
measures.

Recommendation 4: Resolved – Open

      Summary of CRM and EOUSA’s Response. CRM and EOUSA agree with
the recommendation that all United States Attorneys establish workload-
reporting procedures to capture the time dedicated to critical incident response
planning duties, and state that EOUSA is “exploring appropriate means to
implement this recommendation.”

      OIG Analysis. The planned actions are responsive to our
recommendation. Please provide us with the new workload-reporting
procedure or a status report on its development by March 31, 2004.

Recommendation 5: Resolved – Open

       Summary of CRM and EOUSA’s Response. CRM and EOUSA agree that
CTS should provide updated training and guidance to USAOs on how to
prepare effective and comprehensive Plans. In its response, CRM and EOUSA
cite ongoing efforts to implement this recommendation, including the May 2003
Guide, EOUSA and Centers for Disease Control co-sponsored training,
Department training for prosecutors and investigators on the USA PATRIOT
Act, and the “broad array of substantive training” provided by EOUSA to
USAOs and Department attorneys. CRM and EOUSA also state that the
upcoming March 2004 training at the National Advocacy Center will include
“additional guidance on changes in legislation, policy and critical incidence
response practice that have taken place since September 11, 2001.”

Emergency Management Agency’s Federal Preparedness Circulars require all federal agencies
to exercise annually their plans for maintaining agency operations in the event of catastrophes.
U.S. Department of Justice                                                                   61
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis. The ongoing and planned efforts to improve training and
guidance on preparing to respond to critical incidents are responsive to our
recommendation. Please provide us with the final agenda for the March 2004
training conference by April 9, 2004.

Recommendation 6: Resolved – Open

       Summary of CRM and EOUSA’s Response. CRM and EOUSA agree with
the recommendation that CRM review all USAOs’ Plans, including revisions, to
ensure that the Plans cover all critical areas; provide individualized feedback to
USAOs; and periodically report to the Deputy Attorney General on the status of
the USAOs’ Plans. As stated in the response to Recommendation 2, CRM and
EOUSA plan to form a small working group with the Attorney General’s
Advisory Committee to review, evaluate, and provide feedback to each USAO on
its Plan. CTS states that it has already drafted proposed criteria for evaluating
the Plans using the May 2003 Guide and cites the upcoming March 2004
training at the National Advocacy Center, which will include a tabletop exercise
“designed to test the crisis response plans of every USAO and provide feedback
to them.”

      OIG Analysis. The actions planned by CRM and EOUSA are responsive
to our recommendation. The supplemental information we requested for
Recommendation 2 will suffice to provide the status of actions taken to
implement this recommendation.

Recommendation 7: Resolved – Open

      Summary of CRM and EOUSA’s Response. CRM and EOUSA agree with
the recommendation to provide USAOs with training and guidance on how to
develop and conduct appropriate critical incident response exercises, and plan
to provide the training and guidance at the March 2004 national conference.
However, CRM and EOUSA reiterate the objection they raised in response to
Recommendation 3, i.e., that they do not agree that each office should be
required to conduct its own exercises.

      OIG Analysis. The actions planned by CRM and EOUSA are responsive
to our recommendation. Please provide us with copies of the training materials
and guidance relevant to exercising critical incident response plans by April 9,
2004.

      Regarding CRM and EOUSA’s reiteration of their objection to requiring
each office to conduct its own exercises, in our analysis of the response to
Recommendation 3 we request that they establish an appropriate requirement
for USAOs to conduct exercises (field, tabletop, or other) or to participate in
U.S. Department of Justice                                                     62
Office of the Inspector General
Evaluation and Inspections Division
exercises led by other organizations. CRM and EOUSA agreed in response to
Recommendation 1 to develop performance measures to “assess crisis response
plans and [the] exercise…of those plans.” (emphasis added) At the March 2004
national training conference, the USAOs should be provided guidance on how
to develop and conduct exercises and informed how their performance at
conducting exercises will be tracked.

Recommendation 8: Resolved – Open

       Summary of CRM and EOUSA’s Response. CRM and EOUSA agree that
they should complete the development of a website containing information on
critical incident response. They indicate that the website will contain resources
on crisis response issues; best practices; updates on law, policies, and
procedures; and other relevant information, as well as links to other existing
websites with information on crisis response. The CTS is piloting the website
with several USAOs and is working with EOUSA to make it available to all
USAOs. The response further indicates that CRM and EOUSA believe that it
would be more cost effective to augment an existing website (i.e., the website
being piloted by CTS) than to develop an additional one.

      OIG Analysis. The actions planned by CRM and EOUSA to develop the
described website are responsive to our recommendation. By January 15,
2004, please provide us with access to the website and a copy of the website
development and implementation plans.

      Regarding CRM and EOUSA’s statement that they intend to augment the
current pilot rather than develop a new website, that course of action is
consistent with the intent of our recommendation that they “complete the
development” of the website now being piloted.

Recommendation 9: Resolved – Open

      Summary of CRM and EOUSA’s Response. CRM and EOUSA agree with
the recommendation that EOUSA establish a system for accurately tracking
and reporting the status of USAOs’ submissions of and updates to their Plans.
CRM and EOUSA state that they have been working closely together to track
incoming communications from USAOs and ensure that they both maintain
consistent records. CRM and EOUSA anticipate that “a similar mechanism
can be utilized to track submissions of updated crisis response plans.” In an
Action Plan for Crisis Management Response Planning provided with their
response, CRM and EOUSA indicate that the target completion date for the
shared tracking system is November 1, 2004.

      OIG Analysis. The actions planned by CRM and EOUSA to develop a
system that will track the Plan submissions and other incoming
U.S. Department of Justice                                                     63
Office of the Inspector General
Evaluation and Inspections Division
communications from USAOs and ensure that CTS and EOUSA maintain
consistent records are responsive to our recommendation. By March 31, 2004,
please provide us with a status report on the development of the tracking
system that CRM and EOUSA will use to monitor USAO Plan submissions and
other communications.

Recommendation 10: Resolved – Open

      Summary of CRM and EOUSA’s Response. CRM and EOUSA agree with
the recommendation “to the extent that it requests that we ensure that EARS
evaluations of USAOs include a requirement for USAOs to have a current,
updated crisis response plan and to periodically test these plans.”

      OIG Analysis. The actions planned by CRM and EOUSA – to revise the
Evaluation and Review Staff (EARS) evaluations to include steps to ensure that
USAOs have current, updated crisis response plans and that the USAOs are
periodically testing those plans – are responsive to our recommendation. By
March 31, 2004, please provide us with the EARS’ review guide that includes
procedures for evaluating the USAOs’ compliance with the requirement to have
current, updated Plans and conduct periodic exercises of the Plans.




U.S. Department of Justice                                                  64
Office of the Inspector General
Evaluation and Inspections Division
